<html>
<title> - THE 2010 CENSUS: PARTICIPATION OF HARD TO COUNT COMMUNITIES IN NON- RESPONSE FOLLOW-UP</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





  THE 2010 CENSUS: PARTICIPATION OF HARD TO COUNT COMMUNITIES IN NON-
                           RESPONSE FOLLOW-UP

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 30, 2010

                               __________

                           Serial No. 111-116

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
  64-923 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, Ohio

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
HENRY CUELLAR, Texas
JUDY CHU, California
                     Darryl Piggee, Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 30, 2010...................................     1
Statement of:
    Ross, Dr. Robert, president, California Endowment; Gina 
      Montoya, chief administrative officer, MALDEF; and John 
      Cho, actor.................................................    90
        Cho, John................................................    97
        Montoya, Gina............................................    94
        Ross, Dr. Robert.........................................    90
    Villaraigosa, Antonio, mayor, city of Los Angeles, CA; Mona 
      Pasquil, former Acting Lieutenant Governor, State of 
      California; John A. Perez, speaker of the Assembly, State 
      of California; Dr. Robert Groves, Director, U.S. Census 
      Bureau; and Robert Goldenkoff, Director, Strategic Issues, 
      GAO........................................................    10
        Goldenkoff, Robert.......................................    49
        Groves, Dr. Robert.......................................    40
        Pasquil, Mona............................................    23
        Perez, John A............................................    31
        Villaraigosa, Antonio....................................    10
Letters, statements, etc., submitted for the record by:
    Chaffetz, Hon. Jason, a Representative in Congress from the 
      State of Utah, information concerning San Bernardino 
      American News..............................................    74
    Cho, John, actor, prepared statement of......................    99
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Goldenkoff, Robert, Director, Strategic Issues, GAO, prepared 
      statement of...............................................    51
    Groves, Dr. Robert, Director, U.S. Census Bureau, prepared 
      statement of...............................................    43
    Pasquil, Mona, former Acting Lieutenant Governor, State of 
      California, prepared statement of..........................    26
    Perez, John A., speaker of the Assembly, State of California, 
      prepared statement of......................................    34
    Richardson, Hon. Laura, a Representative in Congress from the 
      State of California, prepared statement of.................    84
    Ross, Dr. Robert, president, California Endowment, prepared 
      statement of...............................................    92
    Villaraigosa, Antonio, mayor, city of Los Angeles, CA, 
      prepared statement of......................................    13
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   108

 
  THE 2010 CENSUS: PARTICIPATION OF HARD TO COUNT COMMUNITIES IN NON-
                           RESPONSE FOLLOW-UP

                              ----------                              


                         FRIDAY, APRIL 30, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                   Los Angeles, CA.
    The subcommittee met, pursuant to notice, at 1 p.m., in the 
Center of Healthy Communities, the California Endowment, 1000 
North Alameda Street, Los Angeles, CA, Hon. Wm. Lacy Clay 
(chairman of the subcommittee) presiding.
    Present: Representatives Clay, Watson, Chu, and Chaffetz.
    Also present: Representative Waters.
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Yvette Cravins, counsel; Frank Davis and Anthony 
Clark, professional staff members; and Charisma Williams, staff 
assistant.
    Mr. Clay. The Oversight and Government Reform Committee 
will now come to order. Without objection, the chair and 
ranking minority member will have 5 minutes to make opening 
statements, followed by opening statements not to exceed 3 
minutes by any other Member who seeks recognition. And without 
objection, Members and witnesses may have 5 legislative days to 
submit a written statement or extraneous materials for the 
record.
    Welcome to today's oversight hearing entitled, 
``Participation of Hard-to-Count Communities in Non-Response 
Follow-Up.'' The hearing will examine ways to encourage 
participation in the door-to-door enumeration process known as 
Non-Response Follow-Up [NRFU]. It will allow those who live in 
hard to count communities to hear from trusted voices about the 
importance of being counted.
    I want to take a moment to thank our hosts, the California 
Endowment, for providing us with this impressive location for 
our hearing today. The Endowment is a leader in California 
census outreach, raising more than $10 million to promote 
census participation among hard to count communities throughout 
the State. We are grateful for all of your considerable efforts 
to make this hearing happen today. Thank you.
    We would also like to thank the many other individuals and 
organizations that assisted in the planning for this hearing, 
including the Los Angeles Mayor's Office and Voto Latino. Thank 
you also.
    Previous decennial censuses have under counted certain 
populations, such as African-Americans, Latinos, and other 
historically under represented groups. In both the 1990 and 
2000 censuses, the net under count rate was higher for people 
who were American Indian, Asian, Black, or Hispanic than it was 
for the overall population.
    Reasons for this difference include fear of government and 
outsiders, limited knowledge of English, mobile people and 
households, and irregular household members.
    Besides determining legislative districts, census data 
allocates more than $400 billion in Federal appropriations 
annually to States and local communities. Each person who is 
not counted costs each community at least $1,500 a year, 
assistance that should be going to education, health care, 
transportation, emergency services, and other essential local 
programs. People who live in these areas are not only 
traditionally more skeptical of the census but also more in 
need of the resources that are allocated as a result of the 
once-a-decade count.
    Los Angeles, CA is the hardest to count county in the 
United States, with more than 4 million residents living in 
hard to count areas. The city and county of Los Angeles are 
comprised of all of the characteristics of hard to count areas, 
such as complex households, communication/language barriers, 
mobility, non-traditional addresses, lack of cooperation and 
distrust, and poverty and employment status.
    The door to door enumeration starts tomorrow. Local census 
takers will visit households that did not mail back a census 
form. All census takers carry an official badge and a shoulder 
bag, both with the Department of Commerce seal, and a binder. 
During a visit, census takers will show identification and hand 
respondents an information sheet explaining that their answers 
are confidential. The census taker will complete the 
questionnaire, which should take about 10 minutes.
    We would like those who live in hard to count areas and who 
have not mailed back their forms to know that they can 
participate in the census, that they can trust the 
confidentiality of the census, that a correct count is crucial 
to their community, and that they can and should cooperate with 
the census workers who will be knocking on their doors 
beginning tomorrow.
    I now yield to the distinguished ranking minority member, 
Mr. Chaffetz of Utah.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Chaffetz. Thank you and thank you, Chairman Clay, for 
holding this important hearing. I appreciate all of you being 
here. This is a critical time and juncture with the census. 
Literally hundreds of thousands of people, one of the most--
this massive effort from coast to coast to go out and count the 
people who have yet to fill out their census forms.
    I want the people here in the United States to have great 
comfort, safety and security in filling out this information. 
It will not be used for any other purposes, law enforcement or 
otherwise. It is something that we do as part of the U.S. 
Constitution. Every 10 years, we fan out across this country 
and count every man, woman, and child that we can find. And I 
would encourage every person, whether they are a homeless 
person, whatever it might be, to make sure that they get 
counted. It's simple. It's safe. It's easy.
    I also want to thank all of those enumerators, the people 
that are participating in the census. The education, the 
massive undertaking has been very, very impressive to date. We 
appreciate those people participating and going and talking to 
friends and neighbors and people that they've never met before. 
I appreciate the work of Dr. Groves in the Census Bureau. It is 
a massive undertaking, but please have the safety and security 
of filling this information out. It's vitally important to the 
function of government within this country. It provides us a 
lot of valuable information and again, I just thank the 
chairman for holding this important hearing and look forward to 
hearing from our witnesses and the challenges that we have in 
trying to make sure that everybody is counted. Nobody is under 
counted, nobody is over counted. We're not guessing, but we 
actually go out and get the right count done.
    So again, I thank Chairman Clay and look forward to 
participating.
    Mr. Clay. Thank you so much. Now I'd like to turn to my 
friend and colleague, Congresswoman Judy Chu.
    Ms. Chu. Thank you so much, Chairman Clay, and thank you 
for bringing this hearing to Los Angeles County, my county, 
where my district is, District 32. I understand that this is 
one of the few field hearings that you're having and so I feel 
very, very grateful because Los Angeles County is indeed an 
under counted county and we need all the help that we can get. 
We need all the encouragement that we can get to make people 
answer the doors when the enumerators come.
    This is a very diverse county and we have people from all 
walks of life. We have many immigrants from all over the world 
and as a former member of the Race and Ethnic Advisory 
Committee to the 2000 census, I'm intimately familiar with the 
barriers that there are to an accurate census. I know that 
people think that it's too complicated to do a census, but this 
one is actually the shortest one in history. This one actually 
has enumerators who speak all different languages, including 
bilingual questionnaires and bilingual questionnaire assistance 
centers, and most importantly, this census protects people from 
any invasion of privacy and people will be sent to jail or have 
great fines if they share any information that comes from the 
census to any official person, including the police or 
immigration officials.
    So there is everything to gain. There's nothing to lose. In 
fact, $400 million of Federal moneys rides on an accurate 
census. We don't want Los Angeles County to lose out versus all 
the other counties out there. We should get our fair share. So 
I encourage everybody to answer the door when the enumerator 
comes.
    Mr. Clay. Thank you so much, Congresswoman. Let me now 
recognize my friend and colleague who started with me in 
Congress who we will miss after this Congress ends, and I've 
known her for more than our time in Congress, but Congresswoman 
Diane Watson.
    Ms. Watson. Thank you. And thank you, Mr. Chairman, and the 
ranking member, Mr. Chaffetz. I want you to know we provided 
you today some of our best weather and one of our nicest 
locations in downtown Los Angeles.
    Mr. Clay. I thought the mayor ordered up this weather.
    Ms. Watson. Of course, along with him, yes. Always Mayor 
Villaraigosa is graciously providing for all of our guests that 
come into the city and I just join him--better put that in real 
quickly. Thank you so much for bringing the hearing, the 
subcommittee hearing here. As you know, at this moment--or you 
don't know, I have about 30 people, Mr. Mayor, in my office 
being trained. And we have one of the trainers and these are 
people who came out of one of our job fairs and we just sent 
them over to be enumerators and they were hired and they're 
being trained in the office as we speak.
    And as you know, this is the non-response followup which 
begins tomorrow for the 2010 census. And as a proud member, Mr. 
Chairman, of this subcommittee, as we discussed the preparation 
for the 2010 census, I want to thank you and our ranking member 
for coming here to Los Angeles and this is a critically 
important national endeavor and for allowing me to join with my 
colleagues today.
    I want to also thank today's witnesses for being here to 
lend us your insight and to encourage each and every person in 
Los Angeles to be part of the count. I want to congratulate 
you, Mr. Speaker. The Honorable Perez and I were with Speaker 
Emeritus in Washington, DC, the day before yesterday and 
yesterday she left. Congratulations to you.
    In California, 3 out of 10 households still need to be 
counted. So when the census knocks on your door, please answer. 
Answering their questions is easy. It's important and it's 
safe. These census takers will have an official badge and a 
shoulder bag bearing the seal of the U.S. Department of 
Commerce. They will show identification and a sheet that 
confirms and explains that all answers are one hundred percent, 
as has just been said, confidential, so that everyone knows 
participating in the census is completely safe. You need have 
no fear.
    Participating in the census is also an important civic 
duty. The population numbers derived from the 2010 census will 
affect our communities and our State for the next 10 years. 
Census data is used to determine our share of Federal funding 
and the boundaries of congressional and local election 
districts.
    I'm coterminous with Congresswoman Chu. I am the 33rd 
Congressional District. I go further west and almost go to the 
ocean where Jane Harmon's district is. But you'll always know 
the 33rd by looking to the hills and seeing Hollywood. That is 
the 33rd Congressional District of which I'm very proud.
    Unfortunately, Los Angeles is the hardest to count county 
in the United States which is why it is so important that the 
2010 census has the most successful, non-response followup in 
history. Each person who is missed in the census costs the 
community at least $1,500 a year, money that could go toward 
our schools, Mr. Mayor, as you know, our health care, our 
transportation, which is so necessary in this basin, and 
emergency services and jobs.
    And I understand the government just called a press 
conference about jobs at City Hall and all that press left my 
press conference which was up in Hollywood and we were 
announcing the dedication of the Johnny Grant Post Office. And 
I looked around and all of them had left. And so jobs, jobs, 
jobs becomes the focus, but you know, we're going to see jobs 
in the Hollywood area because we're putting Johnny Grant's name 
on the building on May 10th and people are going to come. We're 
going to have a star there and they're going to come and 
they're going to eat there. They're going to buy trinkets and 
souvenirs there. So we're talking about jobs as well.
    Especially during this time of extreme economic hardship, 
it's important that our count is accurate so that the people of 
Los Angeles get the money they need and deserve. Historically, 
the census has had a tendency to under count minorities and I, 
in my district, Congresswoman Chu, have had about a double 
digit under count, somewhere around 10 to 11 percent.
    And so we find that those that are hard to count have 
language barriers, their children, and people that are living 
below the poverty line. Without an accurate count, not only do 
we lose out on important Federal funds, but we lose the 
opportunity to gain a true picture of the wonderful diversities 
and complexities of our Nation. That is why it is so important 
for people to participate with census counters if they come to 
your door and if they come while you're out, they will leave a 
telephone number. You can call to have your information taken 
over the phone. So get counted and let your voice be heard. 
It's up to all of us to make sure that Los Angeles is 
completely counted and with the leadership of our mayor and 
those who are our witnesses today, I know that we will have the 
best count ever here in the Los Angeles area.
    Thank you and I yield back.
    Mr. Clay. Thank you so much, Congresswoman Watson, for that 
opening statement. And without further ado, I will now 
introduce our first panel and our first witness will be the 
mayor of the city of Los Angeles, the Honorable Antonio 
Villaraigosa.
    Mr. Villaraigosa is the 41st mayor of Los Angeles. The 
mayor began his distinguished career as an advocate for social 
justice and leader of unionization efforts. In 1994, he began 
his political career as a member of the California State 
Assembly, then ascended to assembly speaker, and further was 
elected as a council member for Los Angeles' 14th District. He 
was elected as mayor of Los Angeles in 2005 and re-elected in 
2009 to continue education reform, job creation, and the green 
L.A. program.
    Welcome, Mr. Mayor. I know you're on a tight schedule, but 
we will get to you.
    Next, we will hear from a former Acting Lieutenant Governor 
of the State of California, the Honorable Mona Pasquil. Ms. 
Pasquil, a mere 4 days ago, became the former Lieutenant 
Governor of California. Prior to her appointment on November 4, 
2009, she served as chief of staff to former Lieutenant 
Governor John Garamendi who happens to be a colleague of ours 
now. And she has served as a senior advisor and strategist in 
numerous State and Federal Government offices, political 
campaigns, and private companies. Ms. Pasquil has dedicated 
herself to mentoring youth, speaking about against domestic 
violence against women and children, and serving as a trail 
blazer for California Filipinos and all Asian Pacific 
Islanders. Thank you for being here.
    After Ms. Pasquil, we will hear from the speaker of the 
California Assembly, the Honorable John A. Perez. Mr. Perez was 
elected in 2008 to represent the 46th Assembly District. He has 
spent much of his lifetime fighting for the rights of workers 
with an emphasis on health care and better wages. He is a long-
time advocate for the lesbian and gay community serving on both 
the Clinton and Bush Presidential Advisory Council on HIV and 
AIDS. In January 2010, he made history as the first openly gay 
speaker of the California Assembly. And welcome and thank you 
for being here.
    And next we will hear from the Director of the U.S. Census 
Bureau, Dr. Robert Groves. Dr. Groves began his tenure as 
Director in 2009. Dr. Groves has a bachelor's degree from 
Dartmouth College and master's degrees in statistics and 
sociology from the University of Michigan, where he also earned 
his doctorate. Dr. Groves has testified on numerous occasions 
and is well qualified to lead the census effort in 2010.
    And after Dr. Groves, we will hear from Mr. Robert 
Goldenkoff, Director of Strategic Issues at the U.S. Government 
Accountability Office. Mr. Goldenkoff has over 20 years of 
program evaluation experience with the GAO. He is responsible 
for reviewing the decennial census. He is the co-author of, 
``Federal Jobs, the Ultimate Guide.'' He received his BA and 
MBA degrees from George Washington University and was a 
Presidential Management Fellow. And I thank all of our 
witnesses for appearing today and look forward to your 
testimony.
    It is the policy of the Oversight and Government Reform 
Committee to swear in all witnesses before you testify. I'd 
like to ask you all to please stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Clay. Thank you, you may be seated and let the record 
reflect that the witnesses answered in the affirmative and I 
ask that each witness now give a brief summary of their 
testimony and please try to limit your summary to 5 minutes and 
your complete written statement will be included in the hearing 
record.
    Mr. Mayor, if I may delay your testimony one more time to 
recognize my long-time friend and colleague who represents Los 
Angeles, Representative Maxine Waters. And thank you for being 
here. If you'd like to make an opening statement, you can. If 
not, we'll go on.
    Ms. Waters. Go right ahead.
    Mr. Clay. Thank you so much. Yes, ma'am.
    Mr. Mayor, you may proceed.

STATEMENTS OF ANTONIO VILLARAIGOSA, MAYOR, CITY OF LOS ANGELES, 
 CA; MONA PASQUIL, FORMER ACTING LIEUTENANT GOVERNOR, STATE OF 
 CALIFORNIA; JOHN A. PEREZ, SPEAKER OF THE ASSEMBLY, STATE OF 
 CALIFORNIA; DR. ROBERT GROVES, DIRECTOR, U.S. CENSUS BUREAU; 
     AND ROBERT GOLDENKOFF, DIRECTOR, STRATEGIC ISSUES, GAO

               STATEMENT OF ANTONIO VILLARAIGOSA

    Mr. Villaraigosa. I'm always willing to defer to my friend 
and colleague, Congresswoman Waters. It's great to see you as 
always, a great advocate for housing and the safety net, and of 
course, Congresswoman Watson, who I've known since the 1990's 
when--well, actually before I was elected to the State Assembly 
and served with her in the California Legislature and watched 
her as the President of the School Board. We're going to miss 
you, as you go on to a new chapter in your life. And 
Congresswoman Chu and I who have probably known each other the 
longest, about 30 years I think, we grew up in the civil rights 
movement and we're very proud to have these three 
Representatives. And Congressman Chaffetz, it's good to see you 
from the State of Utah and we're happy to have you here.
    Mr. Chairman, thank you for allowing me the honor to make a 
presentation today. Let me say just how proud I am to be here 
with long-time friends and a family member. The speaker is my 
first cousin and so I'm very proud of him and our family and he 
will have important things to say as well.
    I want to welcome you all to the city of Los Angeles. It's 
more than fitting that you have chosen to hold this hearing 
here, arguably the most diverse city, not just in the United 
States of America, but the world. Present among the more than 4 
million Angelenos are 140 nationalities and ethnicities 
speaking some 224 different languages. The city is 46 percent 
foreign born. We have the largest African-American, Latino and 
Asian middle classes in this city.
    It is also fitting that you're holding this hearing at a 
critical juncture of the census process. I don't have to remind 
you that tomorrow on May 1st, U.S. census workers will begin 
knocking on the doors of those Angelenos whose forms were not 
received through the mail. I am calling on every resident who 
has not yet submitted their census form to cooperate fully with 
enumerator who will be deployed by the U.S. Census Bureau. 
Enumerators are sworn to protect the confidentiality and will 
carry an official badge, as you well know, and yet 
notwithstanding that there are still some who are unwilling to 
cooperate and hesitant to share information with these 
individuals.
    Therefore, to reach these residents who have not yet been 
counted, we're spreading the message that the answers to the 
questionnaire will not be shared with any government agency by 
law. We need to meet the fear of losing the right to privacy 
head on with the simple fact that by taking 10 minutes of their 
time to fill out this form, they will be framing the next 10 
years.
    Mr. Chairman, Members, in 2000, 76,800 Angelenos did not 
return their forms, second highest under count in the United 
States. As a result of that under count, we lost more than $200 
million directly just to the City Municipal Government. The 
county lost about $1 billion. The school district lost a few 
hundred million dollars. So just by virtue of not filling out 
that census form, we were hit with a pretty big penalty as a 
result. So we have said to our residents, it's important to 
engage every Angeleno to participate in mailing back the form. 
Our actions moving forward in the enumeration phase have to be 
to cooperate, cooperate, cooperate, first of all, to reach the 
homes of as many Angelenos as possible.
    My office, with the Census Bureau, has partnered with city 
agencies to update and add 266,374 new addresses to the master 
address file. This has been a battle, a battle that we have 
been willing to take on because we know just how important it 
is to ascertain the appropriate number of addresses. We've 
challenged the exclusion of 12,379 unique addresses. Look, this 
is a city where not everybody lives in the conventional three-
bedroom home with a pool and a front yard and a back yard. Many 
people live on top of a business. They live in garages. They 
live in places that historically might not be the places where 
one would think someone would live. And so we're finding that 
the information that this has helped us make sure that people 
aren't slipping through the cracks.
    The city will generate tens of millions of dollars during 
the next 10 years if we have a more accurate census and 
Congresswoman Watson, you talked about this year's census. This 
year's census is already our most successful. We're leading 
virtually every major city in the United States of America of 
the size, the top 10 cities, in this count. But that's not good 
enough. I think we're at 68 percent as I understand it. But the 
county is at 70 percent and the State is at 72 and we're below 
the national average right now. So even though we're 46 percent 
foreign born, and even though we have the demographic groups 
that historically have been the most under counted, we're 
moving hard and fast.
    Tomorrow, there will be a big march, a march for 
immigration reform. We will have our enumerators there. We will 
be present, sharing the message that not only does your vote 
count, but we need to count you so that you can get the 
services that you pay your taxes for.
    In addition to that, we've worked with the philanthropic 
community and raised what is essentially a couple of million 
dollars and free TV in hard money from philanthropic community 
to expand our outreach effort. We're counting the homeless in 
an unprecedented way where we've distributed socks to the 
homeless all over the city and we launched six feeding programs 
where the U.S. Census Bureau counted thousands of additional 
homeless residents who might otherwise have been missed. And 
last, at the heart of our successful strategy, is a city-wide 
grass roots movement.
    A couple of weeks ago I had a day of service that I do very 
regularly. Tomorrow, we will have another one where we engaged 
a big part of the couple of thousand of volunteers, 3,000 
volunteers that we had in the outreach for the census. So we've 
got community leaders from different sectors all focused on 
this effort. We're building upon the success of our field plan 
with the addition of 30 part-time employees from a highly 
successful Summer Night Lights Program for 30 days. It's called 
the 30/30 Initiative which will strategically place teams out 
in the most under counted communities.
    What we've done is working with the philanthropic 
communities, identified the census tracts where we have the 
highest number of people who aren't returning their forms and 
we're sending our teams into those communities. So thanks to 
the advancement project and the other canvassers, we've been 
able to really enjoy some success, but we've got to do a lot 
more and we want to suggest that we review the census 
advertising strategy to determine whether it was as effective 
as possible in reaching other county communities and assess 
whether 3 days is sufficient to truly count accurately the 
number of homeless in the city. Although we've been more 
successful with that effort, again, we think we need more time.
    So thank you, Mr. Chairman, members of the committee, for 
allowing me to be here with you today.
    [The prepared statement of Mr. Villaraigosa follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. Thank you much, Mr. Mayor, especially for your 
steadfastness and your vigilance to make your city one of the 
top participants in the 2010 census. I appreciate that. I'm 
sure Dr. Groves will have a response for some of the issues 
that you raise. Right now we'll go to Ms. Pasquil.

                   STATEMENT OF MONA PASQUIL

    Ms. Pasquil. Good afternoon, Chairman Clay and members of 
the subcommittee. Thank you for inviting me here to testify 
today and thank you especially for holding this hearing in Los 
Angeles as part of the kickoff to the non-response followup 
phase of the U.S. census 2010. This is truly a monumental 
effort and it's critical that we take advantage of every 
possible opportunity to remind the public how important 
participating in the census is.
    The challenge of this next phase, the door-to-door canvass 
promises to be particularly daunting. We must work together to 
engage the least engaged. We must work together to gain the 
trust of those who have the most to fear. We must work together 
to educate those who are least likely to participate, but often 
those who have the most to lose.
    We must work together to make sure every single person, 
every Californian and all those in our great State are counted. 
This phase is critical because folks need to remember that it's 
100 percent confidential. We need to make sure that message 
gets out. Thank you so much for being here because that, in 
fact, does help us. Californians, I urge you, if a census taker 
knocks on your door, please answer.
    It's my pleasure to be here today with the panelists, 
especially to be with Mr. Perez, our speaker, who will discuss 
the State's efforts during the non-response followup and make 
recommendations for the Census Bureau and Congress to consider.
    In 2000, California was extremely successful in 
implementing the first-of-its-kind, statewide, multi-lingual, 
and culturally appropriate, outreach effort. We spent $24.7 
million on our census effort, an investment that enabled us to 
achieve a mail participation rate of 73 percent. This was the 
first time in history that California's response rate outpaced 
that of the entire country, which came in at 72 percent.
    For the 2010 census, California and many other States did 
not have the surplus funds to spend on a comprehensive outreach 
effort, and the Federal Government has played a very critical 
role, taking many of the best programs innovated in California 
and replicating them nationally. In California, we've also 
experienced the good fortune of having private foundations that 
have been willing to step forward and invest over $9 million in 
outreach, including the California Endowment, the organization 
serving as our host today.
    However, from our success in 2000, we knew that the State 
would need to play an active role in ensuring that a fully 
functional ``intergovernmental'' effort was coordinated and 
implemented. To that end, the State's role has focused on 
convening, coordinating, and collaborating, our very own CCC. 
With our very limited budget, California has invested $1 
million to fund the 13 hardest to count counties and help them 
coordinate their grassroots outreach efforts. These 13 counties 
have 80 percent of the hardest to count population in the State 
and have been asked to convene, coordinate, and collaborate 
with local community partners in their areas to ensure that 
outreach efforts are effectively focused and not duplicated. 
You will hear more about how counties used these funds from 
panelists who will speak later.
    Our outreach in 2000 was focused around three critical 
elements. Trusted messengers. These are people who the hard to 
count populations are most likely to trust. Questionnaire 
Assistance Centers, staffed by trusted messengers from the 
community and placed in locations in the community where the 
staff can help people fill out their forms. Microtargeted Media 
Outreach and locally created messages. We learned in 2000 that 
culturally appropriate ethnic media outlets are the best places 
to get the census message out. Mainstream media, whether it be 
traditional or new, it is not, especially at this point in the 
census, the best substitute for local media targeting. We need 
to hear from our trusted messengers in our own voice in our own 
message.
    Again, because of the limitations of State funding, many of 
these elements have been driven by efforts from the Federal 
level. Both the Los Angeles Regional Census Center and the 
Seattle Regional Census Center have done a great job in hiring 
partner specialists and assistants, all from the community.
    California specifically focused on the hardest to count 
census tracts and the under count from 1990 where engaging all 
those CBOs, trusted messengers, before making placement 
decisions. As a result, an analysis was conducted by the State 
after the 2000 census that found that tracts with the QACs 
funded by the California Complete Count Committee had 
populations that were hard to count in 1990, including high 
proportions of African-Americans, Hispanics, renters, persons 
below the poverty level and linguistically isolated households.
    These tracts improved their mail response by an impressive 
8 percentage points higher than the census 2000. So while we 
applaud the commitment from the Bureau, this committee should 
also recognize that until the U.S. Census Bureau has the legal 
standing and authority to directly invest in State and local 
governments and community-based organizations, the taxpayers 
will not receive the greatest return possible on their 
investment.
    The last critical factor from 2000 was the use of micro-
targeted messages. We know that the U.S. Census Bureau spent 
over $340 million for their integrated communications campaign 
that included multi-lingual creative advertising, and ethnic 
market media buys in addition to the main street market ads and 
other buys. We know from California's multi-lingual advertising 
efforts in 2000, that it's the locally created advertising 
content is what proves to be more effective than the ethnic 
advertisements created at a national level. For example, the 
bilingual ad copy created for Latinos in South Beach, Miami, 
will not be as effective as they are here in Los Angeles. 
Commercials created for communities of color in Philadelphia 
may not resonate in the East Bay.
    Locally created content is just as important as the local 
ethnic media buys themselves. To help the enumeration process 
particularly now we would therefore respectfully request that 
the U.S. Census Bureau media contractors allow Regional 
Directors to have greater input, not only with regard to local 
media buys, but in also crafting the actual creative message.
    Our State has tried to address the lack of locally created 
advertising content by investing a small amount of funding to 
engage over 60 ethnic media outlets to place ads in 60 to 70 
census tracts with the lowest participation rate. Each ethnic 
media outlet has received a very small investment to allow them 
to create their very own targeted culturally and geographically 
specific advertisements. The Ford Foundation also believes in 
very localized, targeting creativity and has funded the same 
organization to implement these efforts in other States. It's 
not too late to apply this and other lessons learned because we 
want and encourage a stronger participation. Thank you.
    [The prepared statement of Ms. Pasquil follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Lieutenant Governor and thank 
you for pointing out the importance of the communications 
campaign.
    Mr. Speaker Perez, you are recognized.

                   STATEMENT OF JOHN A. PEREZ

    Mr. Perez. Thank you, Mr. Chairman. I'd like to thank you 
and your colleagues on the subcommittee for hosting this 
hearing here in Los Angeles. I join Mayor Villaraigosa and Ms. 
Pasquil in complimenting you on that. This is a very important 
venue for us.
    Tomorrow, as has been noted, we begin the labor-intensive 
process of the non-response followup, to reach those who, 
unfortunately, did not return the census forms that were mailed 
out to their homes.
    In California, 3 out of 10 homes still need to be counted. 
Our State poses a particularly daunting challenge. We represent 
12 percent of the Nation's population, but we represent 30 
percent of its hard to count populations. Los Angeles County is 
the single largest hardest to count jurisdiction in the United 
States. And I represent one of the hardest to count districts 
in the State legislature, with only a 64 percent response rate, 
although that number actually represents an improvement over 
2000.
    This door to door canvass is an effort unlike any other 
undertaken by our government. The goal is simple. Count every 
single person. The scope of the process, however, is 
staggering. Thousands of workers in California alone are 
knocking on doors of every household that failed to mail back 
their census form. The census is vital to the efficient 
operation of California government. The under count from the 
2000 census has cost the State government alone, not including 
local governments and special districts, it has cost State 
government alone $1.2 billion on an annualized basis, money 
that could have alleviated at least some of the budget 
shortfalls that we've faced over the past several years.
    I'd like to take this opportunity to remind all 
Californians that an accurate count is very important to our 
State. So when a census taker knocks on your door, please open 
your door, please fill out the form, please engage in this 
process.
    This is one of the reasons why the Members of the 
Legislature have been working so hard on census education. 
We've encouraged our Members of the Legislature to include 
census pitches in all of their community events and make sure 
that they schedule events in hard to count areas. Encourage 
Members to talk to trusted messengers in low mail response rate 
communities about the importance of the census.
    We've recorded PSAs, built Web sites, and created Webinairs 
for State and local elected officials. As an illustration of 
the challenge, Los Angeles Daily News ran a story earlier this 
week about the challenges of NRFU within the Latino community. 
The story talked about a family that had failed to return its 
census form. The irony in the story was that this family had a 
sign on their lawn encouraging their neighbors to participate 
in the census.
    So how do we confront this challenge? First, it's 
particularly critical that during this phase that we build the 
process from the bottom up rather than the top down. The 
challenge is not merely to get a few extra percentage of 
response rate in the mailback process. The challenge is to get 
every single one of the least likely to participate to actually 
join in this effort.
    Using trusted local messengers with tailored messages must 
be more than just a slogan. It must be the reality of the work 
that we engage in.
    Ms. Pasquil mentioned the State's investment to develop 
these types of messages in some of the hardest to count tracts 
in California. I would reiterate that this is only the start. 
The U.S. Census Bureau should allow its Regional Directors to 
have greater input, not only into the local media buys, but 
into the actual creative messaging during the NRFU process.
    Second, during this phase, the Bureau needs to continue to 
engage community-based organizations. One of the most critical 
components of California's efforts are being funded by the 
private foundations. They're supporting their own canvass 
operations to coincide with NRFU to make sure local, trusted 
messengers are directly contacting residents to make sure that 
when the census takers knock on the door, the door is answered.
    Third, this local tailoring needs to extend beyond just 
media programs and actually reach those in the field collecting 
forms. Each community has its own challenges. For example, the 
practice of hotbedding is a military term referring to the 
practice of assigning two or even three crew members sharing 
the same bunk, sleeping in shifts. This same practice had been 
adopted by some in the immigrant community here in Los Angeles. 
In reaching these individuals, census takers already have to 
overcome language barriers and trust issues. Even after 
overcoming these barriers and trust issues, convincing the 
resident to open their door, many times they're unaware of the 
practice of hotbedding and may fail to count everyone who 
resides at that address resulting in further under count. This 
is just one example. I'm sure every member of the committee can 
cite different unique challenges in their own home States and 
districts.
    Fourth, we need to make sure that as we identify 
communities that continue to lag in their response rate, we use 
a very detailed lens. Two examples come from California's API 
community. On a macro level, response rates from the API 
community here in Los Angeles have generally been high. 
However, that rate is not uniform and could easily miss the 
fact that the response rates within Korea Town are low. Failure 
to recognize this disparity could result in that community's 
numbers not being accurately reflected in the NRFU.
    In Fresno County, there's a small, but vibrant Hmong 
community, however, due to their relatively small percentage of 
the population, they could easily go undetected by the National 
Census Bureau. Doing so would particularly be damaging to the 
goal of counting every person as the Hmong community and thus, 
the most effective messages needed to reach this community are 
distinct from the messages that are effective in other API 
communities.
    Looking forward, there are several recommendations that I'd 
like to make from the State's perspective which I expand on in 
my written testimony. I want to briefly summarize, if I may, 
some of these suggestions.
    First, build on outreach successes of this year's census by 
recruiting and retaining large pools of outreach specialists. 
Second, Congress needs to find a funding mechanism to support 
local and CBO efforts. Third, the census must finally end the 
confusing practice of forcing Latinos to identify themselves as 
White, Black, American Indian, Cajun, or other. Questions 8 and 
9 on the form should be combined with Hispanic, Latino, or 
Spanish origin added as a sixth racial category.
    Finally, recognize that State and local governments cannot 
be treated uniformly and we must recalibrate our efforts 
accordingly. With that, I'd once again like to thank the 
committee for coming to California to talk about the next 
phases of the census and I'd like to remind everybody in the 
community of the importance of participating in the census 
process. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perez follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Mr. Speaker, and thank you for your 
recommendations. We will certainly take them into account when 
we do a complete assessment of the 2010 census. I appreciate 
it.
    You may be invited back.
    Dr. Groves, you're recognized.

                 STATEMENT OF DR. ROBERT GROVES

    Dr. Groves. Thank you, Chairman Clay, Members Chaffetz, 
Chu, Watson and Waters, I'm happy to be here. It's nice to be 
out of Washington, in fact, in southern California.
    When I entered my position in July 2009, one of the biggest 
uncertainties that I reported to you was the uncertain 
cooperation of the American public. This uncertainty arose 
because we had seen steadily declining response rates in every 
survey we had done and surveys done outside of the Census 
Bureau.
    I'm happy to say that with some assurance right now, that 
uncertainty was removed by the American public in their returns 
of the mailback portion of the census. The 72 percent rate 
equalled our Nation's effort in 2000 and this is truly a moment 
to thank our fellow residents of this country for their civic 
engagement.
    I also want to note that this success, the success of the 
American public here is partly due in no small part, I should 
say, to the support of this committee and fellow Members of 
Congress and especially the over 200,000 census partners. These 
are smaller organizations spread throughout this country, the 
grassroots organizations that the previous speakers have 
mentioned. I've talked to hundreds, if not thousands of these 
people across the country. Their creativity is just incredible. 
They have hung door hangers describing the census on literally 
millions of houses in this country. They've had census fairs. 
They have sponsored poster contests.
    I just came back from Crenshaw High School where we 
announced the winners of PSA contests that high school kids had 
made. All of the message there is positive for the census. They 
are indeed the true heroes in my mind of the 2010 census. 
They're not being paid. They're not visibly honored by their 
locales. They're not becoming famous in this endeavor. They're 
working to help their neighborhoods because they believe a fair 
count is in the interest of their group and their neighborhood 
and their city.
    I want to thank them publicly for this and I hope and pray 
they have just a little energy left, because we're only halfway 
through this wonderful thing called the census.
    We now move into the next phase of the 2010 census. We will 
knock on the doors of 48 million households that didn't mail 
back their form or whoever received a form given the 
operational strategies of the Census Bureau. This begins 
tomorrow.
    Right now, as we speak, there are 600,000 people spread 
over 35,000 locations in the country getting trained. They're 
actually some of them right now are taking practice interviews. 
This is a big moment for us. On Tuesday, we fingerprinted, we 
have 1.2 million fingerprint sets to do FBI checks on them to 
make sure the American public is safe in this endeavor.
    Our challenge therefore over the last 3 months was building 
up this applicant pool. We hire locally so that our census 
takers capture the local diversity of the community and have 
the language skills that several people have mentioned already.
    I can report to my delight that this work force is in place 
in all but three of the local census offices, 3 of the 500 
across the country and we have at least 2 qualified recruits 
for every position we're filling.
    I can tell you this applicant pool came in much faster than 
we ever imagined it would be. We hit our goals quite a long 
time ago. In most of the local census offices, the ratio of 
qualified applicants to the jobs is a four to one ratio. This 
is, no doubt, a reflection of the unemployment rate throughout 
the country and we are the indirect beneficiary of the hard 
times we're all going through.
    Here in Los Angeles, the regional staff has hired more 
enumerators in these hard to count tracts because those tracts 
will take more time. They have bigger work loads. They also 
require more effort to enumerate. The local census offices have 
created some charts. If you go to our offices in L.A. you'll 
see them. They're called Tract at a Glance Chart. They 
summarize, they give a profile of the census tract on one page 
with graphical representations to help people deploy the right 
work force in areas where there are high concentrations of 
apartment complexes. Over the past few weeks, crew leaders have 
searched the internet to get phone numbers for apartment 
managers and rental offices to help facilitate entry. Crew 
leaders plan to call ahead to contact property management 
companies to get advanced assistance in those areas.
    In high-risk areas throughout the city and the county, or 
high-crime areas, we are identifying the best way to enumerate 
them. Often this is in a group enumeration and 
disproportionately in daylight hours, on weekends. These are 
just a few of the ways that the L.A. Regional Staff is trying 
to tailor their operations to meet the challenges they face.
    I want to assure you that our job at this point is to reach 
everyone that has not yet participated in the 2010 census. In 
some cases I want to note that this will mean we're going to 
call on a house that has already returned the questionnaire. We 
ask for the patience of those people who do that. 
Questionnaires are still coming in as I speak. We're still 
getting returns. Some of those we were not able to cross off 
the list before someone has to go out and visit, so we ask 
people to be patient and cooperate with our folks when we call 
on their houses.
    We will not end this phase until we have a disposition on 
all 48 million households that we haven't yet enumerated. We 
will not quit, therefore, until we get 100 percent response 
rate.
    I want to note just to update the committee that we have 
completed six other operations since the address canvassing 
phase in 2009. The committee noted rightly that operation had 
an overrun in it. I'm proud to note that all of these other 
operations since that time have been on budget and on time. We 
have completed these successfully.
    We do, however, have an internal risk that remains and I 
must alert you to this. When I arrived in July 2009, one of the 
highest internal risks was the late software development of a 
critical system called the Paper-based Operation Control 
System, that's a mouthful. In every testimony I believe I've 
given in this committee, I've reiterated my concerns about this 
program. We are not out of the woods, but I am happy to report 
that last week for us was the maximum load on this system. We 
had to print out every assignment area for these 600,000 
enumerators. We were sweating a little over the weekend, but we 
successfully completed that. This is a testament, by the way, 
to the commitment of our staff. This is not a well-loved 
software system in the Census Bureau right now, but it is 
performing at the level that we need to finish the census in my 
belief.
    Mr. Chairman, members of the committee, we have, I believe, 
successfully completed the first half of the census, but we 
have another half to go. We need the help of local partners in 
a special way right now. The message must be that it is a safe 
thing to do, to open your door to a census taker who is 
carrying one of these badges around their necks and holding one 
of these black briefcases, that it's a safe thing to do, that 
we're making it as easy as possible. We come to you and we ask 
the questions. It should take just a few minutes.
    I thank the committee for its on-going support. It's been 
crucial to the success of the census thus far and I appreciate 
it and welcome your questions.
    [The prepared statement of Mr. Groves follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Dr. Groves.
    Mr. Goldenkoff, you are batting clean up. You're recognized 
for 5 minutes.

                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Thank you, Chairman Clay, and members of 
the subcommittee. I am pleased to be here today at the Center 
for Healthy Communities in Los Angeles to discuss the 
importance of census participation.
    As you know, the U.S. Census Bureau goes to great lengths 
to secure a complete and accurate enumeration of the more than 
300 million people that live in our country. Last month, the 
Census Bureau mailed out questionnaires to around 120 million 
households, and hand delivered 12 million questionnaires mainly 
in rural localities, as well as in the hurricane-affected areas 
along the Gulf Coast. Tomorrow, the Bureau will shift into the 
next phase of the census when it will launch its massive non-
response followup effort with the roughly 48 million households 
that did not mail back their census forms.
    As part of that effort, more than 600,000 enumerators will 
fan out across the country contacting each nonresponding 
housing unit, as many as six times in an effort to ensure that 
everyone is counted. In my remarks this afternoon, I will focus 
on first the Bureau's preparedness for non-response followup in 
terms of workload and staffing levels; second, why it is 
critical for Angelenos and others across the country to 
cooperate with enumerator during followup; and third, the key 
steps the Bureau needs to take moving forward to ensure that 
non-response followup is timely and accurate. The bottom line 
is that to be heard Angelenos must be counted.
    Nationally, based on workload and staffing levels, the 
Bureau appears to be well positioned to implement non-response 
followup. When the Bureau determined the non-response followup 
workload on April 19th, the National response rate was 63.2 
percent which is consistent with the Census Bureau's 
expectations. The response rate for the city of Los Angeles was 
61.4 percent and L.A. County was 64.7 percent. In terms of 
staffing, the Bureau met its goals both nationally, as well as 
for L.A.
    Participation in the census is critical because it has 
decade-long implications for individuals, communities, and 
States. For example, census data are used to apportion House 
seats, redraw the boundaries of congressional and local 
election districts, and help ensure compliance with civil 
rights and other laws. A complete count also helps ensure that 
L.A. and other areas obtain their fair share of Federal 
assistance. This is because more than $400 billion is 
distributed each year through formula grants that allocate 
money based at least in part on census and related population 
data. The grants include Medicaid, highway planning and 
construction, Head Start, and the Children's Health Insurance 
Program.
    According to a recent study by the Brookings Institute in 
fiscal year 2008, Federal assistance programs distributed $19.8 
billion in total program expenditures or almost $2,000 for each 
person in L.A. County. At the same time, local governments in 
the private sector use census data for planning and investment 
decisions and to better tailor the services they provide.
    For example, census data can inform such questions as where 
should the next elementary school be built in L.A.? Are L.A.'s 
mass transit systems reaching the people most likely to use 
mass transit? And where should the supermarket chain locate its 
next store?
    Following up on nonresponding households is a daunting task 
and L.A. presents its own challenges and opportunities. For 
example, a planning data base the Bureau developed help to 
target its resources placed L.A. County first on a list of the 
top 50 U.S. counties with the highest number of people living 
in hard to count areas based on data from the 2000 census. 
Factors contributing to the areas hard to count challenges 
include poverty, unemployment, and language barriers.
    To help address these challenges in L.A. and elsewhere, it 
will be crucial for the Bureau to engage local government, 
neighborhood organizations, clergy, and other trusted voices in 
the community to pave the way for enumerators and build support 
for the census. It will also be important for the Bureau to 
tract various production, quality, and other indicators as 
planned to help ensure non-response followup stays on track as 
well as to have plans and personnel in place to quickly address 
any operational issues that might arise.
    Importantly, census participation is safe. The 
confidentiality of one's answers are protected by law and 
cannot be shared with anyone including law enforcement people 
or tax collection agencies.
    In summary, participation in the census is a quick, easy, 
and confidential act that has lasting impact on States, cities, 
neighborhoods, and ultimately individuals right here in Los 
Angeles and all across America. However, the benefits that can 
accrue from a complete and accurate head count will only occur 
if Angelenos cooperate with enumerators when they knock on area 
doors in the days ahead.
    This concludes my remarks and I'll be happy to answer any 
questions that the subcommittee might have.
    [The prepared statement of Mr. Goldenkoff follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Mr. Goldenkoff. I thank the 
entire panel for their testimony.
    Now we will move to the question period for Members under 
the 5-minute rule and I will yield 5 minutes to the 
gentlewoman, Congresswoman Waters.
    Ms. Waters. Thank you very much, Mr. Chairman. I'd like to 
thank you for coming to my city to hold this most important 
hearing and I'd like to thank you for breaking the rules so 
that I could participate being that I'm not a member of the 
committee or the subcommittee.
    I'd like to thank you for assembling such an impressive 
panel here today with all of our leadership.
    Mr. Mayor, I'd like to thank you for taking time out to be 
here. And of course, our Acting Governor, Lieutenant Governor, 
the Honorable Pasquil, and our new speaker of the California 
State Assembly, and of course, Dr. Groves and Mr. Goldenkoff.
    It is very impressive to see the numbers. It's been 
indicated the mail back response nationally is 63.2 percent, in 
L.A. City, 61.4 percent, L.A. County, 64.7 percent, and that we 
have literally exceeded the goals. And that this is considered 
to be successful.
    I'm worried, however, about the pockets of challenge that 
is referenced by everybody. Let me just preface the question. 
You heard from both our mayor and from our speaker that they 
could have used similar assistance from the Census Bureau, from 
Congress, from the Federal Government in doing their job and I 
think they're absolutely correct. We should not have to depend 
on foundations and others. This is government work. And I'm 
hopeful that perhaps in the next census that will be taken into 
account.
    I also see the goals that you had set for what you 
described as success. Now I want to know where are these 
pockets of challenge, for example, in L.A. County? Where are 
they and what does that mean for reapportionment? For example, 
if they are where we suspect they are in the poorest community 
and communities of color, Latin communities, African-American 
communities, Asian communities, then this has implications for 
reapportionment. So where would you identify them publicly on 
the record and then tell me, Mr. Groves, how you plan to 
address this under count in these challenged areas?
    Dr. Groves. Thank you for that question. First of all, 
you're absolutely right and it's important to note that 
although the mailback return rate or the participation rate, as 
we call it, met or exceeded our expectations, throughout the 
entire country there are pockets. We've analyzed those. In 
fact, every day of this process I was watching the pockets 
develop. We tried to intervene at various ways with more 
advertising of those pockets.
    When we analyzed what are the biggest drivers on the lack 
of return, our data show that they are neighborhoods that are 
disproportionately rental housing, disproportionately poor 
people, disproportionately----
    Ms. Waters. I don't want to interrupt you. I just have so 
much time. Where are they in Los Angeles? Identify these areas.
    Mr. Villaraigosa. I can tell you where they are in the 
city.
    Ms. Waters. OK, in the city.
    Mr. Villaraigosa. We have four clusters that we're focusing 
on. One of them is the area that you represent.
    Ms. Waters. Where is that?
    Mr. Villaraigosa. South L.A. in the following ZIP Codes: 
90011, 90007, 90037, 90003, 90044, 90001, 90008. So that's 
South L.A. The four clusters, the other clusters are Boyle 
Heights, 90033, 90022, 90063, 90023; the Hollywood Echo Park 
area which Congresswoman Watson represents part of Hollywood, 
90029, 90028, 90027, 38, 46, and 26. And then in the central 
city, Korea Town area, 90057, 90005, 90020, 90017, 90006, 
90004, 90019. Those are the areas that we've identified.
    One of the things I want to say, when I was speaker of the 
Assembly, there actually was money in the State coffers so I 
was the individual that actually allocated the money that Mona 
Pasquil talks about. This time around there was no money for 
that and so the million dollars that you talked about, we were 
$23 million down. The city last 10 years ago had more money and 
they allocated more money for this effort than we were able to 
do. We did this on a shoestring. And as the Congresswoman says, 
if there's something to say here, if there hadn't been the 
philanthropic and community organizations and by the way, we 
have 37 nationalities that have the largest population here. We 
focused on those communities, but on the many communities that 
make up L.A. If we had not had those partners, this would have 
been an abject failure.
    My office was the coordinator, without question, but the 
philanthropic organizations, the community organizations, they 
are what has put us in the position where we're doing better 
than last time, but not as well as we need to do. We lost too 
much money last time around. Too many people are not getting 
counted. We're looking at the real possibility of losing a 
congressional seat if there's an under count here. So there's a 
lot at stake and I think the Congresswoman makes a really 
strong point here.
    Cities--we're the ones that engage in this. Cities need a 
bigger partnership than we're getting to do this effort. I do 
want to say that our local Census Bureau folks, I don't know 
where Jamie is--here he is, he's been very responsive, again on 
a shoestring budget, but we've got to have more resources to do 
this work.
    Ms. Waters. Thank you. I think my time is up, Mr. Chairman, 
but I'm hopeful that we can find out what the effort is going 
to be to deal with these challenged areas. Do they double up on 
enumerators? Do they do additional media work? I hope that in 
this discussion we can discover that.
    Mr. Clay. I think we will get a response from the Bureau on 
that and before I move on to Mr. Chaffetz, let me ask unanimous 
consent of the committee to allow Representative Waters to 
serve on this committee. Thank you. So ordered.
    Representative Chaffetz.
    Mr. Chaffetz. Thank you again all for your testimony. I 
need you to know that I was most impressed with the mayor's 
testimony. It was no coincidence that he mentioned Eva Langoria 
in his written testimony, so I'll give him kudos for that.
    Maybe if we can just go down the table. You all mentioned 
things, but maybe if the first three of our witnesses here, I 
want to be crystal clear, particularly with the Census 
Director, Members of Congress here, what is the No. 1 thing 
that you need the Census Bureau to do in your personal opinion, 
what is the No. 1 thing you want to see the Census Bureau do to 
make sure that they maximize the participation in the 
enumeration?
    Mr. Villaraigosa. I associate my comments with some of what 
I heard Ms. Pasquil and the speakers speak to. I think if I had 
to pick one thing, we need more resources to do this. And I did 
mention 3 days to count the homeless--we have the largest 
homeless population in the United States of America. So to put 
cookie cutter, you know, deadlines on everybody, we've a more 
daunting task here with the numbers of homeless people that we 
have in the city.
    Mr. Chaffetz. Thank you.
    Ms. Pasquil. Agreed. Resources, funding. It's critical in 
this phase to reach out to people, but in their language and in 
the best way possible. The messaging and how you convince the 
least engaged is really dependent upon the crafting of that 
message and it must be done locally and we need the resources.
    Mr. Chaffetz. Do you feel that they don't have enough 
personnel? Is your concern that they don't have enough 
enumerators there ready to go starting tomorrow?
    Ms. Pasquil. Enumerators, but also the messaging for local 
advertising.
    Mr. Perez. If I may?
    Mr. Villaraigosa. Before you do, Mr. Speaker, I have 
another commitment to be at. We have 15,000 people at the 
Sports Arena.
    Mr. Clay. Mr. Mayor, we understand and we appreciate your 
time and your dedication to this effort. Thank you.
    Mr. Perez. If I may followup on Ms. Pasquil's statement. We 
should not give short shrift to the notion that we have to have 
very specific messaging to different sub-communities. The Asian 
Pacific Islander community is tremendously diverse. It is 
diverse within itself and it is diverse in different geographic 
areas. The same is true for the Latino community. Oftentimes 
there are different levels of appreciation of that. When we do 
the API community, we often understand at least the basics that 
there are different languages in which we must communicate. We 
fail to appreciate sometimes the difference in using language 
within the Latino community. That is a huge challenge and only 
by engaging local message designs can we most effectively 
address that.
    The issue of trust is huge. When a message isn't crafted in 
a way that is best suited to the audience, it undermines the 
trust that is so essential. I've got to tell you, there's one 
issue that I'm concerned about that we haven't talked about and 
that is the unknown under count. Households that respond and 
therefore not captured in the NRFU, but we have under counted 
who is in their house because they are fearful of disclosing 
that they had more people in their residence than their lease 
or their rental agreement allows for.
    I talked about hotbedding. In parts of my District, it is 
not uncommon to find two, three, and sometimes four people 
sharing a bed on shifts. To the extent that those folks may 
have responded to the written survey, I am fearful that they 
may have under reported residents within their own households 
and this absolutely gets to the question of apportionment and 
reapportionment that Congresswoman Waters so very clearly 
raised for us today.
    Ms. Pasquil. Sir, I have an example we might share as well 
with the community from San Bernardino American News, but it's 
a local ad and it's with the group of the New American Media 
that we have worked with to reach out to our various 
communities, but it goes out to, it's by our own young people. 
In the messaging, it looks familiar and it is familiar and 
people will look at it.
    Mr. Chaffetz. Mr. Chairman, if it's OK I'd like to ask 
unanimous consent that we insert that into the record.
    Mr. Clay. Without objection. The San Bernardino----
    Ms. Pasquil. American News.
    Mr. Clay. American News shall be entered into the record.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Chaffetz. And one final question, I know my time is up, 
but Dr. Groves, what is the one thing that you would ask of the 
local community leaders in helping the census execute and with 
that, after he answers, I'll yield back the balance of my time. 
Thank you, Mr. Chairman.
    Dr. Groves. I hope we keep the dialog, first of all, but 
the one thing to answer quickly, looking ahead is the trusted 
voice, the confidentiality message we think is the most crucial 
now. For those who chose not to fill out the questionnaire some 
of them are afraid. And trusted voices locally can deliver that 
message a lot more effectively than somebody from Washington, 
DC. So that's my hope.
    Mr. Clay. Thank you so much. We will now go to 
Congresswoman Judy Chu, 5 minutes.
    Ms. Chu. Well, thank you for coming out and in particular 
our elected and appointed leaders. Chairman Clay, this is a 
very distinguished group and I thank you. It shows how much you 
care about the census that you are here for this particular 
hearing.
    Let me ask this. I think there are some people out there 
that say well, ``what is in it for me? Why should I even put in 
this little tiny bit of effort to fill out the census form?''
    Can you give an example of where a greater response in the 
census would make a difference in a person's life here in L.A. 
County?
    Ms. Pasquil. Schools. We've been going to schools and the 
Complete Count Committee, all the members have been going to 
schools and to neighborhoods and have talked about money for 
schools, money for hot lunch programs, money for hospitals. 
When you bring it forward in a very personal level where you 
talk about this is not just about yes, it's all about Los 
Angeles in this country, but when you talk to people, when 
these trusted messengers talk about how it personally affects 
our families that has been the most compelling, particularly 
the young people that we've been working with to reach out.
    Mr. Perez. I would associate myself with those comments. 
And I would remind you that for the State alone it's a $1.2 
billion annualized loss. So when you look at the devastating 
cuts that we've had to make in education, in transportation, in 
housing investment, those are all tied to the ability for us to 
leverage for that Federal return that is so significantly based 
on our response rate to the census.
    People in California are generally frustrated that we don't 
get back as high a return on our Federal tax dollars as we 
think we're entitled to, 78 cents on the dollar. The single, 
easiest way to increase our return on Federal money is to fill 
out the census accurately and completely so we get our full 
share.
    Ms. Chu. Dr. Groves, I think there's still some people out 
there that just don't trust the census. And don't trust that it 
truly is private. What kind of training is there for the 
enumerators to keep the information private?
    Dr. Groves. That is one of the cornerstones of the 
training. There are two cornerstones with regard to the 
treatment of folks that they will visit. One is that they treat 
everyone with respect and since we hire locally, that helps a 
little I think.
    The second thing is this pledge of a confidentiality. A 
wonderful--if you read the history of censuses, you become an 
admirer of the Founding Fathers in a new way. They knew this 
country was going to be a country of immigrants and they set 
the foundation for a set of strong laws that Congresses have 
passed over the years to protect these answers from any use by 
an enforcement agency. These are really strong laws. It's one 
of the proudest things I think we can all say as residents 
because mainly new immigrants come from countries where central 
governments have been oppressive and they need assurance that 
their answers will be protected and we have those laws. That's 
a message we need to deliver nationally and the message has to 
be matched by local trusted leaders. That's the only way it 
works, I think.
    Ms. Chu. And the penalty for not adhering to this law?
    Dr. Groves. If I would breach that law as an employee of 
the Census Bureau, I'd go to prison for 5 years and I would 
have a $250,000 fine. And by the way, this is a lifetime oath. 
When I leave this office, I'll still be obligated by that law.
    Ms. Chu. And has this ever been breached by a census 
worker?
    Dr. Groves. To our knowledge, we have no individual cases. 
The laws have changed over the years, but under the current 
legislation, I don't have examples of that to give you.
    Ms. Chu. So nobody has ever been reported to the 
immigration officials then?
    Dr. Groves. Never to my knowledge.
    Ms. Chu. Thank you.
    Dr. Groves. Nor to any other enforcement agency at the 
local, State, or national level.
    Ms. Chu. Thank you. I yield back.
    Mr. Clay. Thank you. Representative Watson, you're 
recognized for 5 minutes.
    Ms. Watson. Yes, I also want to add my thanks to all the 
witnesses. This has been very helpful, very informative.
    I noticed something that occurred. Those of us who are in 
Congress, we have a residence in Washington, DC. I got a census 
form in my mailbox in my apartment building and I made it out, 
but it says ``other.'' Now this is not a vacation home. I am 
not traveling. I am here to work. So I would hope that the form 
does not count me twice because I filled out the form for my 
home where four people live. So I did write where it said 
``other'', Dr. Groves, I am a Member of Congress, this is 
temporary, etc. How is that handled?
    Dr. Groves. Congresswoman, it's interesting. I've had a lot 
of conversations with your colleagues about this issue over the 
past few weeks. So we count people where they usually live. 
Each of us has to make this calculus. Many Members of Congress 
are usually living in Washington, but a lot of Members of 
Congress are at home for 3 days a week or at least 2 days a 
week. That may be you. So we ask that you fill it out where you 
usually live.
    And then there are two special questions this year that I'm 
quite hopeful about. We asked you to say do you sometimes live 
somewhere else? There's a little check box. We're going to 
followup on you, perhaps, because we probably mailed it, if you 
have a residence here, we probably mailed you a form here as 
well. And we're going to make sure that you're not duplicated. 
So you can check up on us to see if we followed up properly. 
That's our intent.
    Ms. Watson. We're having this discussion, but you might 
want to go ahead, Maxine----
    Ms. Waters. No, no, no. I don't want to take your time, but 
I got four in my Washington, DC, condo and I got three more in 
Los Angeles. I started to fill them all out.
    Ms. Watson. I have an apartment in Arlington, VA and I 
would not want my personage to be counted in Arlington, VA. I'd 
rather have it counted in Los Angeles where the need is the 
greatest. So I wish there would be special attention. She 
received four and I don't know how many people live in the 
residence.
    Ms. Waters. One.
    Ms. Watson. One. So we really need to sort that out. That 
might be a problem. There are 435 of us sitting in the House 
and 100 over in the Senate and if that happened with the 
majority, we really would have over counted some places and 
under counted in others. So I just raise that as something that 
was a concern to me.
    Dr. Groves. On March 1, 1790 this discussion was held and 
some of the Founding Fathers who were Members of Congress at 
that time had to sort through this, although the transportation 
was a little different at that time, I must admit. And they 
decided that everyone would be counted where they usually live 
and it turns out every 10 years since 1790, we've tried to do 
that as faithfully as possible. I acknowledge the complications 
for those of us who have multiple residences. It's a challenge 
to us every decade to make sure we don't get duplicate counts 
and that's why we added those questions.
    Ms. Watson. Thank you. The 1980 census I called the 
Director to my office and particularly the Regional because I 
noticed something. I had my own legislative office on a very 
busy main street, but above all of those street level 
businesses were apartments where people were living. And I 
noticed that you never see the occupants until the weekend and 
I see them playing in the parking lot, playing over at the 
school grounds on a Sunday and so on, so I suggested that we 
particularly go out on the weekends and go to places, because 
the people up there over the liquor store were hotbedding and 
there were different people living in one bedroom, hotbedding 
and counting two people.
    So I suggested that the enumerators not look like they're 
official, but dress like the people who are playing on the 
parking lot and the kids who are playing on the school grounds. 
And don't carry that clipboard. Go out and talk with people and 
find out where they live. So I don't know if that's being 
followed up on, but I just want to say this, the city of Los 
Angeles has on any given night between 70,000 and 90,000 
homeless and I think we're doing the job by sending out people 
to count and having their address be at the closest center 
around, but that becomes a real issue.
    People now are sleeping on the sidewalks. They're living on 
the sidewalk and so the approach to them and I was up there at 
a post office and very--shall I say peculiar behavior, so we 
need to approach them with people who really understand who the 
homeless population actually is. And we might get closer to a 
more accurate count if we send out people well trained.
    By the way, I just told you they were training in my office 
and I was really appreciative of 20 or 30 of these people, the 
enumerators.
    Mr. Clay. Thank you, Representative Watson.
    Let me ask, Dr. Groves, can you show the subcommittee a few 
media clips that the Bureau has developed to encourage trust 
and inform the various communities about NRFU?
    Dr. Groves. I'd be happy to do that with the cooperation of 
the wonderful technology in this room, it looks like we're all 
set up.
    Let me tell you something about the messaging. We started 
the advertising for the non-response followup stage on April 
26th. It's different messaging than we had in prior 
commercials. The messaging before was if you have this form, 
fill it out. Now we're showing videos with census takers in 
mind and they have these black briefcases that I have a copy of 
here and they're wearing this badge. The whole messaging is 
about be nice to this person when they come, open your door. So 
I don't know whether we're ready to show some of these. I don't 
know how to do this.
    Mr. Clay. I'll go on to my next question. Let me ask 
Speaker Perez----
    Dr. Groves. Looks like we're getting close, Congressman.
    Mr. Clay. Are you ready? OK.
    [Video was played.]
    Mr. Clay. Just one? Apparently, they're having technical 
difficulties. Let me continue with the questioning, until they 
get it together.
    Let me ask----
    Dr. Groves. We've got one in Korean coming up. 0
    [Video was played.]
    Mr. Clay. OK, we get it. Thank you so much. Let me ask and 
I appreciate the commercial. Let me ask Speaker Perez, do you 
believe concerns regarding recent immigration legislation in 
Arizona will have a detrimental effect on the census efforts in 
California, particularly the NRFU door to door efforts?
    Mr. Perez. I'm fearful that unless we do an aggressive job 
of communicating using trusted messengers that may be an 
impediment. I will tell you that I am sure that it will be an 
impediment in the State of Arizona. For somebody that opened 
their door in that environment, I think it is a very, very 
challenging proposition. Here in Los Angeles, we have a huge 
challenge with making sure that we reinforce the messaging that 
we have been delivering about the confidentiality of the census 
process.
    I will tell you in my office I convened meetings with all 
the religious leaders in my District, to have them engaged in 
the process of talking to people about the confidentiality. It 
is going to be a huge challenge for us. I think it's incumbent 
upon the Bureau to find special resources to deliver the 
message of confidentiality very directly as we move forward in 
this NRFU period, otherwise, we absolutely run the risk of 
having a greater under count than would otherwise be the case.
    Mr. Clay. Thank you for your response.
    Mr. Goldenkoff, according to your testimony, have the 
glitches in the paper processing system been worked out and--go 
ahead.
    Mr. Goldenkoff. Not yet, but the Bureau is going to great 
lengths to correct them. They're working with the different 
companies that supply the different application systems, but 
it's still a risk area and time will tell. So far the Bureau 
has been able to do what needs to be done so far, but it is a 
frustrating system for the people who have to use it and we'll 
have to see what happens when the enumerators go into the field 
next week and how well it performs then.
    Mr. Clay. And that involves the tabulations. Is it 
tabulations?
    Mr. Goldenkoff. No, it's more the--it's operational support 
on a day to day basis. Basically, it marries the 600,000 
enumerators with the 48 million housing units that need to be 
followed up on. It provides progress reports and tells them 
where to go and how fast they're doing it. It's more of a 
management tool than tabulation.
    Mr. Clay. OK. Final question, how do the dollars expended 
upon NRFU 2010 compare with the past efforts?
    Mr. Goldenkoff. It is more in terms of total dollars, but 
it's a lower percentage of the overall cost of the census. I 
don't have those figures directly in front of me. It was a 
little bit over $2 billion for 2010 non-response followup.
    Mr. Clay. OK.
    Mr. Goldenkoff. The total cost of the census was $14.7 
billion.
    Mr. Clay. Mr. Speaker.
    Mr. Perez. Mr. Chairman, if you would allow me to just 
briefly expand on the answer to a previous question? One of the 
things I was struck by is that as we've increased our response 
rate over 2000 here in California, in particular, Los Angeles, 
there is one area that I think is a particular concern. The 
overall response rate for English-speaking Latinos is on the 
rise as compared to 2000, but for Spanish-speaking Latinos, 
it's on decline. So getting back to the question that you 
asked, that already decreased rate of response amongst Spanish-
speaking Latinos, coupled with concerns over what has been 
happening in the immigration debate in Arizona and how it's 
translated into an overall sense of heightened tension is very 
concerning.
    We see these patterns whenever there is an economic 
downturn of increased inner-group tension. But here we have the 
confluence of that and the timing of the census which causes 
great concern for us. And that again speaks to the need of us 
doing an extra special outreach program in this NRFU period.
    Mr. Clay. And the Bureau's effort should be targeted?
    Mr. Perez. It should be and it shouldn't just be a 
translation of a message. This gets to the point that Ms. 
Pasquil and I were trying to make. There is a difference 
between translating a message into a specific language and 
actually crafting a message to a specific community. When you 
saw those two ads I didn't understand the words that were 
spoken, but they were the exact same ad in Korean and Japanese. 
It is my very clear sense from them that the message was the 
same message. I think we would probably benefit from a more 
nuanced message targeted to each of the communities 
differently.
    If you look at the response rate between the Japanese-
American community here in Los Angeles and the Korean-American 
community, very different response rates. So what are the 
underlying cultural issues impacting people's level of trust, 
people's level of sense that it is proper and safe to interact 
in this process? So language in and of itself isn't the 
solution. Messaging has to be crafted in a way that maximizes 
the way to people's participation.
    Mr. Clay. And then begs that the Bureau make the extra 
effort to target those communities.
    Ms. Pasquil, any closing remarks?
    Ms. Pasquil. And you can do that by allowing your Regional 
Officers to do that and work directly with the communities and 
the local media creative and buyers.
    Ms. Waters. Mr. Chairman, I still did not hear what was 
going to be done that was different for these challenged areas? 
I did hear the compliment that was paid to elected officials to 
say that we needed to use our voices, but Mr. Groves, that's 
not enough. Aside from sending the enumerators out, what are 
you doing that's different and special in the challenges areas?
    Mr. Clay. And let me followup on that, reclaiming the time, 
and Dr. Groves, hasn't the Bureau held back funds to deal with 
the issues raised by Speaker Perez and others to target 
specific groups during NRFU?
    Dr. Groves. We have, I think the first answer is that we 
have targeted those areas, trying to use local media as much as 
possible. I admit there's--it's frustrating that you can't do 
everything you want to do. Everything you say I agree with, by 
the way.
    Ms. Waters. We've got some specific ZIP Codes that were 
showing these areas. What is going to be done to get to those 
ZIP Codes? It cannot be generic. It cannot be the kind of video 
buys that you've done in the past. How are you going to get 
down into those communities? Excuse me, will you yield for a 
minute for the gentle lady?
    Ms. Watson. I'm looking in the back. I see Danny Bakewell, 
publisher of the Sentinal and you're now, if I understand 
president of the Black Publishers Association. A paper like 
that, that comes right into our community and read within the 
community, might be helpful to invest in for them to present 
the message in a way that will reach those who cannot be 
reached in other ways.
    So I would suggest using the press in these areas that 
become pockets where it's hard to count. And let me just ask if 
I may, Mr. Chairman, if you will make a comment when the time 
for the public to comment, is there going to be a time for the 
public to comment?
    Mr. Clay. We've got another panel that we're going to 
invite.
    Ms. Watson. I was just asking for some suggestions.
    Ms. Waters. I'm reclaiming my time that was yielded to me 
by the chairman. I did not have an opportunity to get into some 
questions about the lawsuit that has been levied against the 
Census Bureau about the way you do hiring. Let me just say that 
I at one point in time recognized that there was going to be 
some difficulty getting these forms back in from challenged 
areas in my District, so I held a census Town Hall meeting for 
the purposes of hiring at Southwest College. We had 300 people 
there. I started to call them and out of almost 100 calls that 
I've made, I've found only two people who had been hired. These 
were people who came directly from the community.
    Now, the lawsuit that has been levied is a lawsuit because 
you do it a little bit differently than the civil rights law 
says we can do in the Census Bureau. The question of have you 
ever been arrested as opposed to have you ever been convicted 
appears to be utilized by the Census Bureau and if one has been 
arrested, it appears that they just get thrown out of the 
window, that those in that group do not get hired. We talked 
about the fingerprint and the FBI and all of that.
    But if I ask you about public housing projects in East L.A. 
and in South Central Los Angeles and you told me that there was 
a terrific under count and I asked you who would you hire to go 
into those areas, if you hired people who have ever been 
arrested, based on your forms, you're going to have great 
difficulty in getting the kind of response that we need because 
unfortunately Latinos and Blacks are disproportionately 
arrested and even convicted in some cases. But the arrest 
records of young Blacks and Latinos is so disproportionate, but 
it is predicted that living in certain communities, by the time 
you're 17, 18 years old, you're going to have been arrested. 
You're going to have been stopped by the police and you're 
going to get arrested. If nothing happened, they let you go.
    But I would like to ask, there are public housing projects, 
particularly in East L.A., downtown and South Central, we need 
to see what those responses are. And I think they're probably 
going to be a lot less than the average is nationally, L.A. or 
for the State. And then I want to know whether or not you can 
shore up the work that's being done with some of those 
applications that have been thrown aside from people who live 
in those areas and who came from those areas who tried to get 
jobs. Because if you're talking about trying to do something 
about the under count, the challenge there, you've got to do 
something different.
    It can't be that elected officials are going to say you 
guys don't know what you're doing, you better go out there. 
Nobody is paying any attention to that. And the ads certainly 
are not going to do it. They were not culturally significant. 
We've got Cinco de Mayo coming up. Juneteenth will be coming 
up. You don't factor that kind of stuff into it.
    Tell me what you're going to do and if you don't know what 
you're going to do beside what you've already said, maybe you 
should let some of us give you suggestions like I'm trying to 
give you now about how to get Nickerson Gardens counted.
    Mr. Clay. Before Dr. Groves answers, let me share with the 
committee the struggle that the Bureau has had as well as I 
with the minority party on this committee about qualification 
for employment and how they demanded a list of what kind of 
infractions hirees could have and could not have, what kind of 
crimes they committed and they demanded a listing. And we 
struggled with it for a couple of months until the Bureau came 
out with a list. And that was the demand--they came out with a 
list of which crimes were allowable to even be detained for. 
And which kinds of crimes were not allowable for people who 
would be temporary workers in the census.
    Ms. Waters. But if you've been arrested and you've 
committed no crime, you were arrested, but you were let go, you 
should be eligible for a job.
    Mr. Clay. And that's why I brought it to the minority's 
attention that you're going to exclude numerous people from 
certain communities because as you said, young Black males, 
young Hispanic males, are all the time being pulled over, being 
stopped, being detained.
    Ms. Waters. These are your challenged communities. What are 
they going to do about it, Mr. Chairman?
    Mr. Clay. I'll let Dr. Groves tell you what he did.
    Mr. Perez. Mr. Chairman, may I ask to be excused? I have an 
event at a community hospital that I have to get to.
    Mr. Clay. Yes, sir. Mr. Perez.
    Mr. Perez. Thank you, Mr. Chairman.
    Mr. Clay. It's been a pleasure having you too. Thank you 
for your attendance.
    We're about to wind it up if Dr. Groves can answer the 
question.
    Dr. Groves. I share the concerns of recruitment in every 
area. If you think about where the workload exists now, these 
are areas throughout the country where the issues you bring up 
are salient.
    I can say that with the restriction of hiring within these 
areas, within the local Census Office areas, we have been 
successful in recruiting a team that fulfills our workload 
needs.
    The process that we went through, as the chairman noted, 
was one that was revised, reviewed by the Office of General 
Counsel, by OPM, by EEOC. We've tried to walk that narrow line 
and it's a very difficult thing to do to hire locally and 
indigenously because we know that works better. And then also 
at the same time to assure the American public that we have a 
screening process that puts pretty salient in our viewpoint 
their safety, that we can assure them that we've reviewed the 
backgrounds of these people and that they can be assured that 
when someone knocks on the door, they have been reviewed in a 
way that we follow. I understand the limits----
    Ms. Waters. Mr. Groves, that's why you have a lawsuit. 
You're in violation of civil rights laws in a way that you did 
this hiring. I appreciate what you're saying, but you still 
can't tell me how you're going to get these challenged areas 
counted?
    Did you put more resources into them?
    Dr. Groves. Yes.
    Ms. Waters. How?
    Dr. Groves. We put more human resources into them. We put 
more media resources into them.
    Ms. Waters. So what did you do in terms of the way you 
hired enumerators, did you double them up to go into these 
areas?
    Dr. Groves. We made them proportional to the workload. And 
these areas that you're talking about have hot--by the very 
fact that we're talking about them having bigger workloads than 
others.
    Ms. Waters. Yes, but if they have bigger workloads, have 
you accommodated that?
    Mr. Clay. And also, Mr. Groves, hasn't the Bureau held back 
funds to deal with the issues raised?
    Dr. Groves. Absolutely.
    Ms. Waters. Mr. Chairman, I would hope they would 
specifically identify, first of all, public housing projects 
all over the country, whether we're talking about Los Angeles 
or New Jersey or Harlem----
    Mr. Clay. St. Louis.
    Ms. Waters. St. Louis, that's right. All about Crossgrove 
Village in St. Louis. Is Richardson Gardens still there? And 
tell us what has happened with them and how you have doubled up 
your resources? It's not clear to me, if there are 
extraordinary workloads to be done, you would have accommodated 
that in the regular work that you do, so if that didn't get it, 
that means you've got to do even more and so we want to know 
how you did that, with the enumerators you're sending in, how 
much different than what you've done already. We want to know 
whether or not you asked the local newspapers to do special 
editions and to distribute them door to door because a lot of 
people, poor people don't buy newspapers.
    We want to ask how you targeted these additional resources 
that you've held back in ways that will do extraordinary work. 
When can we get that, Mr. Chairman?
    Mr. Clay. The Director will respond verbatim, question by 
question in writing.
    Ms. Waters. Thank you, Mr. Chairman.
    Mr. Clay. If there are no other questions for this panel 
this panel is dismissed. Thank you all for your testimony and 
we will call up the second panel.
    [Off the record.]
    Mr. Clay. The statement submitted by Congresswoman Laura 
Richardson for this subcommittee shall be submitted for the 
record. And without objection, so ordered.
    [The prepared statement of Hon. Laura Richardson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Clay. I will now introduce our next panel. Our first 
witness will be Dr. Robert Ross, president of the California 
Endowment and our host for this field hearing.
    I also want to recognize that our host has done a 
magnificent job of training, of conducting a training seminar 
for census workers right down the hall today. So thank you for 
your efforts to conduct a full and accurate census for Los 
Angeles County.
    Dr. Ross has been president and CEO of the California 
Endowment since September 2000. During his tenure, the 
Foundation has worked to increase access to health care for all 
children, strengthen the community health centers, improve 
health services for farm workers and ex-offender populations 
and to strengthen the pipeline for bringing racial and ethnic 
diversity to the health professions.
    The Endowment has led 2010 census outreach efforts in the 
State of California raising more than $10 million to promote 
the importance of participating in the census. Dr. Ross is a 
Diplomat of the American Academy of Pediatrics and received his 
undergraduate, in Public Administration. Medical degrees from 
the University of Pennsylvania. Thank you for being here today 
and for opening up this wonderful facility to the subcommittee, 
Dr. Ross. We appreciate it.
    Dr. Ross. Thank you.
    Mr. Clay. Our next witness will be, we will hear from Ms. 
Gina Montoya, chief administrative officer of the Mexican-
American Legal Defense and Education Fund. Ms. Montoya is 
responsible for revamping MALDEF's communication and 
technology. Ms. Montoya brings nearly 20 years of experience in 
nonprofit management and legislative experience to MALDEF. She 
has served as the chief of staff with two mayors and a State 
Senator. Founded in 1968, MALDEF is the Nation's leading Latino 
civil rights organization, often described as the law firm of 
the Latino community. MALDEF promotes social change through 
education, advocacy, employment and political access. And thank 
you for being here, Ms. Montoya.
    Our next witness will be Mr. John Cho. Mr. Cho is a Korean-
American actor and musician currently starring in the ABC 
television drama Flash Forward as FBI Agent Noh. Mr. Cho 
appeared in the 11th Star Trek film as a young Lieutenant Sulu 
and I'm a big Star Trek fan so I am so glad to have you here. 
His comedic and dramatic credits include the Harold and Kumar 
series and the 1999 best picture Oscar winner, American Beauty. 
He has appeared on a variety of shows at East West Players, the 
Nation's preeminent Asian-American theater troop. Born in 
Seoul, South Korea and lives in Los Angeles, Mr. Cho began 
acting while studying English literature at the University of 
California at Berkeley. He resides here in Los Angeles and I 
thank all of our witnesses for appearing today and look forward 
to their testimony.
    It is the policy of the subcommittee to swear in all 
witnesses. I would ask you to stand and raise your right hands, 
please.
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated. And let the record 
reflect that the witnesses answered in the affirmative.
    We'll start with the testimony. Dr. Ross, you may begin.

STATEMENTS OF DR. ROBERT ROSS, PRESIDENT, CALIFORNIA ENDOWMENT; 
 GINA MONTOYA, CHIEF ADMINISTRATIVE OFFICER, MALDEF; AND JOHN 
                           CHO, ACTOR

                  STATEMENT OF DR. ROBERT ROSS

    Dr. Ross. Thank you, Mr. Chairman, I can be brief in my 
remarks. Most of the remarks that I prepared had already been 
reiterated or mentioned in the previous panel which was an 
excellent panel.
    I'll just make a couple of comments. I do want to 
acknowledge our trio of terrific congressional Representatives 
that were here today, Congresswoman Waters, and Congresswoman 
Watson, and Congresswoman Chu. You have been warriors for 
social justice in under served and voices in this community. 
We're just so thrilled to benefit from your leadership and have 
you here today.
    A couple of comments just to reiterate and underscore the 
comments of the previous panel. A successful census count is 
important to the building of healthy communities and may seem 
odd that a president of a health foundation and its burdens are 
concerned about this, but this is what it means to the State of 
California if we don't have a good census count. First of all, 
even though a grade of 90 percent is typically a good grade in 
a math class, I wish my son had ever achieved a 90 in any math 
test in his academic career, but a 10 percent under count in 
the State of California means a loss of $40 billion over a 10-
year period to the State.
    And in those $40 billion are resources where programs like 
the Children's Health Insurance Program, SCHP, mental health 
services, alcohol and drug treatment services, community health 
centers and community clinics, the MediCal programs, all of 
these programs are driven in heavy doses by formula funding and 
what's used to calculate that formula funding are census 
figures. This is why an under count is so critically, 
critically important to this community and this is why I think 
the mayor was leaving here today to go to the Sports Arena 
where literally tens of thousands of Los Angelenos who can't 
get health care are standing in line, hopefully waiting for 
someone to provide with some charitable health care because, in 
part, we're not receiving our fair share of Federal resources. 
So this is how this issue is hitting us in the face today, just 
a few miles from there, are many Angelenos that are not 
receiving the kind of health care they need.
    On the solutions side, I really appreciated the line of 
questioning from our Congresswoman, it's a two-legged stool, it 
takes two steps in tandem. One is the community organizations 
that know the communities, where to find the under counted 
populations, are trusted by the community. Remember in the year 
2000, $23 million in State funding supporting these community-
based organizations so they had the capacity and the 
infrastructure to walk the neighborhoods and get these counts 
done. This year, that dollar figure from the State because of 
the State funding crisis is down to $1 million or less than $2 
million which is why the philanthropic community stepped in to 
try to--not make up for all the losses, but at least for some 
of that. And we've been able to support this effort with $4 
million from our own Board of Directors headed toward an 
accurate census count.
    The second piece that you heard from the first panel is 
trusted ethnic media. And so if there are resources to answer 
the Congresswoman's question, if there are resources to get at 
those under counted communities, those are the two pieces that 
demand and require more targeted critical support. The 
community-based organizations in those neighborhoods, trusted 
by the community, highly function in those neighborhoods and in 
those community organizations, and No. 2, ethnic media. The 
ethnic media has to be supported in terms of getting the 
messages out in their newspapers and radio and other forms of 
communication. So I would underscore those two points.
    And anything you can do, Chairman Clay, in your committee 
to support the efforts of the Census Bureau to use those two 
vehicles to really get at these under counted communities over 
the next several months, we'd be happy to do anything we can do 
to support the efforts of bringing those folks together. But 
you have our full support and I want to thank you for 
leadership in raising this issue with the American public.
    [The prepared statement of Dr. Ross follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you so much, Dr. Ross. You certainly can be 
assured that this subcommittee will work with the Members that 
are here today, especially Representatives Chu and Waters and 
Watson who have taken such a keen interest in the census, 
especially with us having a full count of all communities 
throughout this country. I appreciate your testimony, Dr. Ross.
    Ms. Montoya, you're recognized.

                   STATEMENT OF GINA MONTOYA

    Ms. Montoya. Thank you, Mr. Chairman. Mr. Chairman, members 
of the subcommittee and guests, thank you for inviting the 
Mexican-American Legal Defense and Educational Fund [MALDEF], 
to testify at this hearing to examine ways to increase 
participation in non-response followup. MALDEF appreciates this 
opportunity to present to the subcommittee information about 
our efforts to date and efforts for the enumeration phase, 
specifically as we target the hard to count Latino population 
throughout America.
    MALDEF is committed to an accurate and complete census 
count to ensure Latino communities receive their fair share of 
public funds and political representation. We have regional 
Census Directors across the Nation who have led our efforts to 
raise awareness and encourage participation and ensure a more 
accurate count in nearly every high Latino population area that 
is identified as a hard to count area.
    With the challenges of the current unparalleled level of 
distrust in the immigrant community, with workplace raids, 
family separation, the Nation's economic downturn, and what was 
a growing senseless boycott buzz early in the campaign, MALDEF 
has met the challenge with a multi-faceted outreach strategy 
that has endeavored to counteract the apathy in some cases, 
uncertainty, mostly, much fear and even anger that surrounds 
the notion of sharing personal information about our families.
    In addition to the thousands of community hearings, 
presentations and town halls, church meetings, conferences, 
festivals, schools and door to door canvassing, MALDEF has 
deployed a multi-million dollar, multi-media strategy to 
complement and augment our outreach in targeted high Latino 
population areas. Our outreach efforts have incorporated face 
to face, television, radio, print, and the internet. MALDEF's 
regional Census Directors, the national Census Director, the 
president and general counsel, regional counsel, and nearly 
every MALDEF employee have instructed, provided materials, 
answered questions, and led the difficult work of calming the 
fears and concerns of America's hardest to count Latinos in 
persuading, encouraging, and convincing them to participate.
    We have enjoyed the support and participation of 
celebrities, electeds, the clergy, and numerous trusted 
messengers, known and beloved internationally, nationally, and 
regionally, including a $3.5 media campaign with Eva Longoria 
Parker that played in all of the largest markets across America 
and two very well known in our community actors and a very 
famous balladeer, who is an older gentleman of ill health, who 
is beloved in our community and that's had a tremendous impact 
as well.
    Our strategy to reach millions of Latinos has integrated a 
grass roots campaign with a multi-media campaign, and a strong 
community education campaign. Some of the elements of our 
community education campaign have been to include inserts in 
the largest Spanish speaking newspapers. This is our motto and 
our image for the MALDEF's census campaign, [in Spanish] fear 
does not count, because that's the greatest emotion that we're 
facing in our communities as they--actually, fear opening the 
door to someone who appears, who may appear to be from the 
government. That along with very simple messaging on how 
important, safe, and easy it is to participate, this sort of 
fundamental messaging has been very effective in our community. 
It went out in half a million newspapers across the country as 
an insert in daily newspapers.
    The palm card bilingual is also a very effective tool as we 
passed out these in the millions across the country at events. 
And our newest enumeration flyer is again a bilingual message, 
a very important--I'll get to that in a moment. We also did 
something that works in our community. We did a comic novela 
that is in Spanish and in English by a very well known artist. 
He's in 50 syndicated newspapers across the country. The 
Spanish is dated more for the first phase. The English version 
actually has the enumeration message of how you identify 
someone who comes to your door and how to feel safe when that 
person does come to your door. Very effective tool, also used 
as inserts and at community events.
    So this very brief overview describes MALDEF's activities 
to date, probably 10 percent of what we've actually done. 
MALDEF's outreach plans for the enumeration phase have begun 
with a launch of a series of national days of action to conduct 
door to door canvassing in concert with Spanish language media 
for even greater outreach as it plays on local and national 
newscasts. We have created an enumeration phase, bilingual 
information flyer, which I just showed you that informs people 
of the safety and confidentiality of this phase, how to 
identify an enumerator and critically important to show with 
our hard to count communities is the cautionary message that 
enumerators will never ask for and one should never show Social 
Security cards, credit cards, immigration documents, home 
titles, rental agreements, etc.
    For the first phase, MALDEF created an 8-minute 
informational, instructional DVD and we're creating a new one 
for the enumeration phase. These have been and will be 
distributed nationally and played in waiting rooms of 
government offices, social service centers, clinics, churches, 
consulates and schools, etc. We've created about 6,000 of those 
and we intend to distribute those across the country as well.
    We also plan TV, radio, and print media outreach for this 
phase specifically. So to wrap, our enumerator phase and our 
folks have been out for weeks now canvassing door to door, that 
face to face contact, our individual staff persons and 
volunteers may not be well known in the community, but they're 
a warm face, they're a friendly face. They speak the language, 
were culturally sensitive. We know the fears that they're 
feeling and so they open the door and they agree and they 
pledge to participate. And so we're going in front of the 
enumeration phase that launches officially tomorrow to tell 
them they're coming because you didn't do this, now 
participate, and do your civic role.
    We also did media language rollouts in indigenous languages 
because in the labor camps of California, you have farm workers 
who don't speak Spanish or English. They speak their own 
obscure--in California or in the U.S. indigenous language. We 
did those in four separate native Mexican languages. Very 
effective. We're playing those in little supermarkets, ice 
cream trucks, and they play on radio in the Central Valley in 
San Diego, in Los Angeles and in Phoenix.
    MALDEF's view of participation as a civil right of all is 
the motivation behind our outreach efforts. Our recommendations 
are simplistic and in line with everyone else's here. We need a 
major, massive purchase of Spanish language, this is 
specifically for our community, television and radio time in 
high Latino population areas, especially in Arizona.
    With what has occurred there in the middle of a national 
census in a State whose census response rate was already below 
the national average is inconsistent with our national 
constitutional imperative of completing a full count of U.S. 
residents. We need an army of trusted, religious, and celebrity 
messengers on TV and radio and we also need to conduct an 
intensive media outreach campaign to inform the Colonia 
residents of south Texas, another very, very heavily impacted, 
confused crowd. They were willing and then it's like you're not 
going to get it in the mail. We're going to come to your door. 
Confusing messages don't help, but we're trying to work 
together to get in front of that to say ``look, the plan 
changed'' or ``it's different than what we thought.'' ``We're 
going to be there with you.'' ``Please participate,'' and 
they're eager to participate. We haven't found people to be 
abruptly antagonistic about the census necessarily. They just 
want more information and they want to know that it's 
confidential. And having that legal piece about the 
confidentiality has been an incredible boost to our messaging 
effort. That carries an impact that's very different than what 
they're used to in their home countries. So it means something 
to hear that. A person who violates that confidentiality may 
spend up to 5 years in prison. That's very important.
    Another very popular element that works in our community is 
the telethon on Spanish language television. Telethons allow 
individuals to call in and ask questions anonymously and that's 
a very popular modality for our community. They trust the 
figures that deliver the news day in and day out and along with 
trusted community messengers, answering phones, telethons are a 
very effective way of getting those questions answered.
    Again, the purchase of print ads in large and small daily 
and weekly periodicals, especially the Spanish-speaking 
magazines and newspapers, and especially Catholic newspapers 
are very effective in our communities.
    Thank you.
    Mr. Clay. Thank you so much, Ms. Montoya.
    We will now hear from Mr. Cho. You're batting clean up.

                     STATEMENT OF JOHN CHO

    Mr. Cho. Good afternoon, Chairman Clay, and members of the 
subcommittee. I want to thank you for the opportunity to 
testify at today's hearing on an issue I consider vital. As an 
actor who has been in many youth oriented films, the phrase I 
hear most from Asian American kids is ``thanks for 
representing,'' something I'm sure you hear. Because there are 
relatively few Asian actors in film and television, my presence 
makes them feel seen and heard by the entertainment industry 
that they support with their time, viewership and dollars.
    A generation ago, I felt a similar pride watching George 
Takei on the bridge of the Enterprise in the original Star Trek 
series. In a small way, his presence made me feel that I was a 
legitimate part of the larger American culture, something I 
didn't always feel growing up as a Korean immigrant.
    I am speaking here today because the census, much more than 
appearing on television, is a real opportunity to represent our 
respective communities.
    Thanks to the Asian Pacific Legal Center for this bit of 
data, over 5 million Asian Americans and 280,000 Pacific 
Islanders live in California. We make up roughly 14 to 15 
percent of the Golden State.
    Paul Ong in UCLA's Urban Planning Department estimates that 
150,000 to 175,000 Asian American Pacific Islanders in 
California were missed and not accounted for during census 
2000. To put that into perspective, that's like missing the 
entire city of Pasadena to the tune of roughly $2.1 billion in 
appropriations lost over the course of a decade.
    Being counted ensures that your community receives the 
dollars it deserves and needs to provide services like 
education, health care, and voting rights. So I want to urge 
those listening to open their doors to the census workers, 
secure in the knowledge that they are federally prohibited from 
sharing their data or otherwise invading your privacy. They are 
forbidden from collecting Social Security Numbers and cannot 
ask or determine whether you are an undocumented resident.
    And I want to say particularly to the sons and daughters in 
families where English is not the primary language, please 
assist your parents. As a junior high school student I helped 
my parents fill out FEMA forms when our home was damaged in the 
Whittier earthquake. And I know there are kids out there who do 
much more; children who translate in the emergency rooms, who 
translate principals' notes, Medicare and tax forms, and 
translate customer orders for their family run businesses.
    Your parents might be reluctant to allow strangers into 
their home. I know that's the way mine are, but it's time for 
you to step up and explain to them how important an opportunity 
this is, and how easy it is. In doing so, you will be 
representing your family, your race, culture, and neighborhood.
    So thank you for allowing me to speak. Asian Americans have 
been historically under counted in the census and it's a 
privilege to be a part of the effort to accurately portray the 
composition of our country.
    And finally, I want to say to those who have already sent 
in their forms, and those who plan to cooperate with the 
enumerators who will be coming to their doors, ``thank you for 
representing.''
    [The prepared statement of Mr. Cho follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Clay. Thank you, Mr. Cho, for that perfect and powerful 
message and for you representing, too.
    At this point we will go into the 5-minute question period 
and we will begin this time with Ms. Chu.
    Ms. Chu. Ms. Montoya, your array of programs for the census 
are just very, very impressive, particularly since they're so 
culturally specific. You use forums that are familiar to the 
communities like the novelas to reach out to them.
    I was wondering where you got the funding for that?
    Ms. Montoya. We have been very fortunate to receive 
national philanthropic funding. We received funding from the 
California Community Foundation for a very innovative Internet 
Web application that actually incorporates a game for texting 
to youth, that they can then link on to a Web site that shows 
the United States of America and how people are pledging to 
participate, that in turn, gives the participant a 25-song iPod 
card which is pretty interesting, pretty neat and innovative.
    The Ford Foundation, the House Foundation, the Joyce 
Foundation, we have operations all across America, so some of 
our funding is specific, for example, in Chicago and it's 
mostly foundation support.
    Ms. Chu. How has the coordination with the Census Bureau 
been?
    Ms. Montoya. The coordination in Los Angeles has been 
great. The coordination has been varied in other parts of the 
country. The coordination here in Los Angeles--we actually have 
a very close relationship with them and we share a lot of 
information, so it's good to have that relationship to be able 
to share information as it's occurring in real time so that we 
can spot react and be proactive.
    Ms. Chu. You mentioned the Arizona law, but are you going 
to be doing something to address that going forward?
    Ms. Montoya. Relative to the census?
    Ms. Chu. Yes.
    Ms. Montoya. It has actually had the impact of encouraging, 
especially young people, especially students to volunteer in 
greater numbers. And so we're working very closely with them to 
help message correctly to negate the great amount of fear. Some 
of the homes that we've gone to previously are now empty and 
that's of great concern and it's a tragedy really. As you know, 
MALDEF had its press conference yesterday and we do intend to 
bring a lawsuit.
    Ms. Chu. And Mr. Cho, what might have made your parents 
more likely to open up the door to an enumerator?
    Mr. Cho. I think the message that would have been useful 
for my parents to hear is that it's safe, the information is 
safe, but also the emotional message that would have helped 
would be this is a way to ensure your children's future. I 
believe that an accurate count is the beginning of ensuring 
rights for their children and I think that message would have 
been something that would have been very powerful for people 
like my parents.
    Ms. Chu. Thank you. I yield back.
    Mr. Clay. Thank you, Congresswoman. Congresswoman Waters, 
you're recognized.
    Ms. Waters. Thank you very much. I would like to thank our 
witnesses for appearing here today, sharing with us your 
thoughts about the census and sharing with us actual activities 
that you're involved in.
    Ms. Montoya, you identified several sources of funding, 
mostly foundations. Do you get any funding from the U.S. Census 
Bureau at all?
    Ms. Montoya. MALDEF is prohibited or we have by our 
charter, as a nonprofit organization, we do not accept 
government funding at all at any level of government.
    Ms. Waters. How much have you organized in private 
foundation money?
    Ms. Montoya. About $1.2 million.
    Ms. Waters. I beg your pardon?
    Ms. Montoya. $1.2 million.
    Ms. Waters. So you're continuing some of the challenging 
areas that were identified today, some of those ZIP Codes, the 
ZIP Codes that you need to be paying attention to, how do you 
plan to up the activities, what does it take?
    Ms. Montoya. Well, we were out there today. Our census 
staff and volunteers, today was one of our national working 
days on the census and so we were in several of those ZIP Codes 
today with little armies of students and volunteers to go door 
to door, to knock on those doors to share that message. And 
again, I want to reiterate how important it is to have that 
face to face contact. It isn't so challenging once people 
understand the good that can come from the census, that it's 
safe, that it benefits your community in all of these many 
ways, and in some instances we tell people MALDEF will be there 
to protect you, if you are violated in any way.
    Ms. Waters. Do you screen your volunteers the way the U.S. 
Census Bureau screens volunteers?
    Ms. Montoya. No, we do not and I've taken complaints from 
various community groups throughout the State that are very 
distressed, and throughout the Nation actually, are very 
distressed about the conflict in what the Department of Justice 
evidently approves for a hiring process, and what the U.S. 
Census Bureau has restricted itself in terms of hiring. It's 
been very frustrating and very disappointing to people who 
thought they might have an opportunity to be helpful.
    Ms. Waters. Including volunteers and others to help do this 
work, have you run into the kind of problems that the Census 
Bureau, by the way that it acts, would have you believe that 
they have to work so hard to keep these bad people from being 
employed? Do you run into these bad people out there who we say 
``no way can we let you work with us.'' Is that a problem at 
all?
    Ms. Montoya. No, it hasn't been. We do a very intensive 
training. We provide everyone with the message points that 
they're to do.
    Mr. Clay. Ms. Montoya, can I ask you to speak directly into 
the mic, so we can get the recording?
    Ms. Montoya. Of course. So to answer your question, in 
short, no, we have not. We invite people to volunteer. We do 
not screen them in that manner. We do provide a training and we 
do a lot of role playing to make sure that they have the 
messaging right. We provide them with those message points and 
it's a very brief interaction, actually, that they're doing 
door to door and our Census Regional Directors are on top of 
all of it as we go door to door canvassing.
    Ms. Waters. Thank you. Perhaps we can get you to train the 
U.S. Census Bureau on how to do this. They obviously do it 
differently.
    Dr. Ross, thank you for allowing us to be in this beautiful 
space here and your participation--have you received any 
requests from other ethnic organizations to do the kind of work 
Ms. Montoya has been doing? Those were wonderful materials that 
were produced there. They are so appropriate for the outreach 
that they are doing. I haven't seen that in the Black 
community, in the Asian community. I haven't seen it anywhere. 
I've just seen it here.
    Have you had any requests for assistance?
    Dr. Ross. In fact, Congresswoman, we've had more requests 
than we could handle. There's a group of actually 10 
foundations in the State of California with about $16 million 
in funds. We're funding over 200 organizations across the 
State. The majority of them, ethnic organizations, many of them 
African-American organizations, and we've got more requests 
than we can handle.
    Ms. Waters. Any from the NAACP? Someone was here today from 
the NAACP. Did they request funding?
    Dr. Ross. We did get a request from the State Chapter which 
we could not accommodate, but I think we're funding a local 
NAACP Chapter, but I can get back to you with exact funding on 
that. But I would say the following is at the stage that we're 
at now, using a comment that Mr. Cho might be familiar with, 
now that we have information about the specific information and 
data about the under counted ZIP Codes, we all need to go into 
work drive on those under counted ZIP Codes.
    And actually, we've had good cooperation from the local 
Census Bureau representative, Mr. Jaime Christy, but if there 
are, in fact, resources available, Federal resources available, 
particularly to focus on those under counted areas, we can all 
get in one room with maps about these under counted areas, then 
perhaps we can target all these more assertively and 
strategically in combination with Federal dollars and see if we 
can get more bang for the buck. But we've had far more requests 
for funding these organizations than we've been able to handle.
    And in fact, Congresswoman, as we've had budget planning 
for our budget last year, we didn't have any money set aside 
for census outreach because we didn't see it as the nature of 
our business. Our grantees are usually health centers and 
hospital and mental health providers and so now we find 
ourselves in the business of trying to make up for what State 
government has not been able to do. But I can tell you we've 
had far more requests than we have been able to handle.
    Ms. Waters. You're absolutely right, and as I said earlier 
today, the government should pay for this count and this is the 
responsibility, a constitutional responsibility of the 
government to pay for this count. However, for those 
foundations and organizations who take it upon themselves 
because they understand what it means in terms of resources to 
communities, we're very appreciative for that, very, very 
appreciative for doing this kind of work.
    So Dr. Ross, since you've entered into it already, let me 
just say that for the communities for which I'm going to be 
working with the chairman and the Bureau to take a very, very 
close look at, in the Los Angeles area, we have a number of 
organizations in these areas, whether we're talking about--
there were several ZIP Codes that they named today, but you 
have the Watts Gang Task Force and we will see what we can do 
looking at what kind of resources they have in government. 
We're going to look and see if you'd like to again align 
yourself with, but including seeing what you can do to help us 
out. Appreciate that.
    Dr. Ross. Be happy to.
    Ms. Waters. Thank you. Let me just say, someone was talking 
about young people assisting parents. It's a very effective way 
of working. As a matter of fact, what I think a lot of people 
are beginning to understand is it was a very effective 
operation in the Obama campaign with the older Jewish community 
in Florida. What they did was they asked the young people to go 
in and work with them and to talk with them about the issues 
and no one had really done that before. And sometimes, there 
was a matter of translation, but other times it was a matter of 
just understanding the issues a little bit better. And they 
created a whole data base and it worked wonderfully well.
    Now what you said here today is right on, but you're not 
going to see that in a census media because again, what they do 
is not culturally sensitive. They act to reach out, but the ads 
were basically American ads that were translated, rather than 
being culturally sensitive language that everybody has been 
referring to here today.
    How we get them to do that kind of work, I don't know. But 
it surely is missing and based on what we saw today, people are 
not going to open their door simply because it says be friendly 
and kind to your census taker. It just doesn't get it. So I'm 
hoping, Mr. Chairman, we can try one more time to see if in 
this last stage that we can get them to be more culturally 
sensitive with the dollars that may be available to help with 
this push.
    Thank you very much, Mr. Chairman. I yield back.
    Mr. Clay. Thank you. Let me ask Dr. Ross, you know, 
California is home to 10 of the 50 counties in the Nation that 
have been identified as being the hardest to count. Can you 
tell us your outreach efforts in these 10 hardest to count 
counties? As a matter of fact, the census tract that we are 
situated in today where the California Endowment is located, 
had a mailback rate of 57 percent.
    What kind of outreach efforts do you see being needed, to 
get as close as we can to a full count?
    Dr. Ross. The 200 organizations, the coalition of 
philanthropic organizations as identified across the State, 
represents a wide swath of African-American, Latino, Asian 
Pacific Islander-led organizations. So local, for example, it 
might be the community coalition or SCOPE or the California 
Alliance here in Los Angeles. These organizations that have 
worked in these communities, know these neighborhoods 
intimately, know the issues intimately and I think at this 
point what I would welcome and certainly would be in support 
of, we can work with the Foundation, but also with the Census 
Bureau on this is let's get a war room set up, let's get the 
maps on the wall, let's get some numbers and data and targets 
up there and let's really make the next several months of this 
campaign to put the private sector funding in support with the 
community-based organization and advocacy organization 
leadership, organizations like MALDEF, like the NAACP, like 
Asian Pacific American Legal Center. And let's get all in one 
boat and each rowing in the same direction about how it is 
we're going to get those better numbers coming out of those ZIP 
Codes and out of those neighborhoods.
    There are elements of that sort already underway, but I 
think we need to move with a sense of urgency and a sense of 
collaboration and a sense of real team work and hopefully, I 
think based on the folks we've been working with, folks are 
really able to do that and I think if the Census Bureau asserts 
that kind of leadership in this next phase, we'll be there in 
support. The private sector will be there in support, and the 
community-based organizations, the ethnic organizations, the 
trusted messages, and the trusted messengers, will all be in 
support. But I think the next several months are going to be 
absolutely critical.
    Mr. Clay. It seems like there has to be a buy in of the 
Census Bureau with the Regional Director really being the 
coordinator of this effort and an active participant that's 
directing these resources toward this effort.
    Dr. Ross. And we found that the Regional Coordinator has 
been responsive and has been supportive, but let's get a sense 
of urgency over these next several months.
    Mr. Clay. As you say at warp speed.
    Ms. Montoya.
    Ms. Montoya. If I may, I just passed along a DVD of the 8-
minute informational instruction that we created that we're now 
going to transfer into the enumeration phase message. I'm not 
certain that they'll be able to play it, but just so that you 
get a contrast of how significantly different our own messaging 
is. I'm not certain that they'll be able to play it, but 
perhaps just a few seconds of it.
    Mr. Clay. We'll continue with the questions.
    Mr. Cho, do you believe that government distrust still 
exists and hampers the ability to fully count the Asian 
community or do you attribute that to additional factors? What 
can we do to allay the fears? Just like you connected to young 
people in your testimony and showed how?
    Mr. Cho. I'm not an expert, but yes, I do believe 
government mistrust is a problem. I know my father was a 
preacher for many years in Glendale, CA which is a few miles 
away. And he had a largely immigrant congregation. My 
experience was that whenever there were any issues with the 
congregant's legal problems, school problems, police problems, 
they would come to him first. Then they would respond. They 
would go to him for counsel, because they came from countries 
and communities where there was a less incentive trust with 
essential government, so that certainly is an attitude that 
needs to be combatted and to be dealt with, absolutely.
    Mr. Clay. Thank you. Are we ready for the video? No, you're 
not sure.
    Representative Watson, you may ask.
    Ms. Watson. I have been informed that most of the clusters 
are in my District, the 33rd District. And I wanted to describe 
the boundaries of it so you'll be really clear. We go from 79th 
Street out south all the way up to that Hollywood sign and then 
we go all the way over to where the 134 and the 5 intersect at 
Riverside. And then we take in the University of Southern 
California and go on down.
    It is the most diverse district in the State and maybe the 
most diverse in the country and there are certain kinds of 
cultural pockets that I don't know who you address. I have a 
big Armenian community up in Hollywood.
    Mr. Clay. Really?
    Ms. Watson. Oh yes, yes.
    Mr. Clay. We'll play it now.
    Ms. Watson. Just filling in time.
    [Video was played.]
    Ms. Montoya. That's just an example. You see how starkly 
different that is, but that resonates in our community because 
those are real people and those are the people that we've 
focused our efforts on, the hard to count Latino population. 
Yes, some of us live on pretty little streets like the 
commercial and that's perfectly fine, but we all answered right 
away. Now we're at the second layer, at the really hard to 
count population and that's who these folks represent.
    Ms. Waters. Will the gentleman yield?
    Mr. Clay. Yes.
    Ms. Waters. One of the things that I noticed about the 
Census Bureau was a 30-second ad. You don't hear about anything 
in 30 seconds. It's gone like that. And I noticed what you just 
showed us was longer than any 30 seconds and even though I did 
not understand all of the words, it sure looked good.
    Ms. Montoya. Thank you. Well, we were also blessed to hire 
a two-time Emmy award winning international journalist, but 
thank you very much. It is an 8-minute--that's why we play it 
in waiting rooms across the country.
    We also have the 30 second spots, but this is our 8 minute.
    Mr. Clay. Representative Watson.
    Ms. Watson. What I find is that with all of the languages 
that are spoken, the translation from one language, say 
Japanese to English is not always accurate, but there are words 
that are not translatable. The actions are. And so what we need 
to do is see that we have moneys, Mr. Chairman, into these 
various ethnic and these pockets and let them come up with what 
will reach them, you see.
    You know, you look at scripts on TV and you'll see a Black 
person speaking. I say, ``they would never speak this way in a 
certain place. Who's writing the scripts?'' You know 
immediately. And so I think what is so catchy about this is 
that people on the streets are speaking to each other. And I 
think if we were to direct that money that's in reserve to a 
responsible organization like MALDEF in the Hispanic community, 
if we were to direct it to people who can then come up, write a 
little script, have people who look like them speaking, I think 
that would make a difference.
    Ms. Montoya. Much agreed.
    Mr. Clay. Thank you so much. Let me wrap up this hearing, 
but thank the California Endowment for their hospitality. Let 
me also thank my colleagues who helped make this hearing what 
it was today, to help us heighten the awareness throughout this 
community and throughout this country and over the last year or 
two, they have tolerated me and put up with me in our 
persistence in getting to this. And what we will do is when we 
go back to Washington next week, we will draft a letter to 
Director Groves asking him to actually come together with 
groups here in this community and across America to bring those 
extra resources, to bring it to the regional level so that we 
can collaborate. Who better knows than those Regional Directors 
what are really needed. And we have to get this right. We have 
to get it right.
    So let me conclude by saying thank you to this panel and 
thank you for your involvement in the census. We appreciate it. 
That concludes the hearing. Thank you.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
